       FOLLOW-UP AUDIT OF THE

      DEPARTMENT OF JUSTICE’S

INTERNAL CONTROLS OVER REPORTING

 OF TERRORISM-RELATED STATISTICS:

      THE EXECUTIVE OFFICE FOR

     UNITED STATES ATTORNEYS

         U.S. Department of Justice

       Office of the Inspector General

                Audit Division


            Audit Report 13-34

             September 2013

   FOLLOW-UP AUDIT OF THE DEPARTMENT OF JUSTICE’S

        INTERNAL CONTROLS OVER REPORTING OF

           TERRORISM-RELATED STATISTICS:

              THE EXECUTIVE OFFICE FOR

              UNITED STATES ATTORNEYS


                             EXECUTIVE SUMMARY


       In February 2007, the Office of the Inspector General (OIG) completed
an audit of the Department’s internal controls over reporting terrorism-
related statistics. This audit reviewed terrorism-related statistics reported
by the Department and three Department components – the Federal Bureau
of Investigation (FBI), Executive Office for United States Attorneys (EOUSA),
and Criminal Division – and it found that the Department components and
the Department as a whole did not accurately report terrorism-related
statistics. 1 The 3 components did not accurately report 24 of the 26
statistics reviewed, with some statistics significantly overstated or
understated, and others overstated or understated by minor amounts. 2 In
September 2007, following the release of our audit report, EOUSA revised its
internal control procedures for gathering, verifying, and reporting terrorism-
related statistics.

      The OIG initiated this follow-up audit to determine if: (1) the
Department components took appropriate actions to implement the
recommendations from our 2007 audit; and (2) the corrective actions
implemented improved the components’ ability to gather, track, classify,
verify, and report accurate terrorism-related statistics. This report provides
our results pertaining only to EOUSA. The OIG issued a similar report on the
corrective actions taken by the National Security Division in September
2012. 3 In this audit, the OIG identified 39 unique terrorism-related statistics
reported by EOUSA in its budget submissions or annual statistical reports for

       1
          U.S. Department of Justice Office of the Inspector General, The Department of
Justice’s Internal Controls over Terrorism Reporting, Audit Report 07-20 (February 2007).
       2
          For purposes of this audit, we considered the misreporting of a statistic as
significant if the statistic was either overstated or understated by 10 percent or more.
       3
          After our 2007 audit, the National Security Division took over responsibility for the
corrective actions on the recommendations we made to the Criminal Division. Our follow-up
report on the National Security Division is the U.S. Department of Justice Office of the
Inspector General, Follow-up Audit of the Department of Justice’s Internal Controls over
Reporting of Terrorism-Related Statistics: The National Security Division, Audit Report
12-37 (September 2012).


                                               i
fiscal years 2009 through 2012, and the auditors selected 11 of the 39
statistics to test for accuracy. Included in our review were statistics that
reflected on the performance of EOUSA’s terrorism-related efforts, such as
statistics relating to the number of terrorism-related cases filed, the number
of defendants convicted at trial or by guilty plea, and the number of
defendants sentenced to prison.

       We found that although EOUSA revised its procedures for gathering,
classifying, and reporting terrorism-related statistics based on the
recommendations from our 2007 audit, EOUSA’s implementation of the
revised procedures was not effective to ensure that terrorism-related
statistics were reported accurately. Specifically, we found that EOUSA
inaccurately reported all 11 statistics we reviewed during this follow-up
audit. Most of these 11 statistics were inaccurately reported by significant
margins. For example, we found that EOUSA overstated one statistic
showing the number of terrorism-related defendants within our sample who
had been judged guilty in FY 2009 by 13 percent, and then overstated the
same statistic for the defendants within our FY 2010 sample by 26 percent.
The inaccuracies we found also included a statistic showing the number of
terrorism-related defendants within our sample who had been sentenced to
prison in FY 2010, which EOUSA overstated by 19 percent. In response to
these findings, EOUSA officials told us that to the extent cases are
overstated in one year due to untimely data entry, these cases are
correspondingly understated in previous years in which the cases should
have been reported.

       The continued inaccurate reporting by significant margins indicates
that EOUSA needs to strengthen its implementation of controls for
gathering, verifying, and reporting terrorism-related statistics. Specifically,
we found that statistics were inaccurately reported because: (1) EOUSA
based statistics on the system disposition date, which is the date the
U.S. Attorneys’ Offices (USAO) entered the reported case information into
the Legal Information Office Network System (LIONS), instead of the actual
date the reported transaction occurred; (2) EOUSA did not allow for a lag
time at the end of the fiscal year to give the USAOs an opportunity to enter
case data that was backlogged at the end of the fiscal year or that related to
events occurring at the end of the fiscal year; (3) EOUSA had not
established clear definitions for some statistics or rules for how they should
be reported; (4) EOUSA did not keep its reporting log up-to-date with all the
statistics reported and the methodologies for how those statistics were
developed; and (5) the USAOs devoted their resources to work they deemed
to be of a higher priority, causing delays in entering case data into LIONS.




                                       ii
      This audit report makes eight recommendations to help EOUSA and
the USAOs improve the accuracy and documentary support for the
terrorism-related statistics reported. Accurate statistics are important as the
data is used by Department management and Congress to make budgetary
and operational decisions.




                                      iii
                                TABLE OF CONTENTS



INTRODUCTION ............................................................................... 1


Audit Purpose and Scope ..................................................................... 2


Prior OIG Audit.................................................................................... 3


FINDING AND RECOMMENDATIONS.................................................. 6


ACTIONS TAKEN TO IMPLEMENT THE RECOMMENDATIONS FROM

OUR 2007 AUDIT WERE NOT EFFECTIVE AT ENSURING EOUSA

ACCURATELY REPORTED TERRORISM-RELATED STATISTICS ............ 6


EOUSA’s Implementation of Controls Developed in Response to

 Our 2007 Audit Recommendations ....................................................... 6


Accuracy of EOUSA Terrorism-related Statistics Reported Subsequent

  to Our 2007 Audit............................................................................. 9


   1.	 Number of criminal appeals filed in program category

       Terrorism/National Security Critical Infrastructure ....................... 19


   2.	 Number of criminal cases in U.S. District Court – all occurrences –

       terminated in program category Terrorism/National Security

       Critical Infrastructure .............................................................. 22


   3.	 Number of criminal cases in U.S. District Court pending in

       program category Terrorism/National Security Critical

       Infrastructure ......................................................................... 23


   4.	 Number of criminal cases in U.S. District Court terminated in

       program category Terrorism/National Security Critical

       Infrastructure ......................................................................... 24


   5.	 Number of defendants in U.S. District Court – all occurrences – in

       criminal cases filed in program category Terrorism/National

       Security Critical Infrastructure .................................................. 26

   6.	 Number of defendants in U.S. District Court – all occurrences – in

       criminal cases terminated in program category Terrorism/

       National Security Critical Infrastructure...................................... 27


   7.	 Number of defendants in U.S. District Court in criminal cases filed

       in program category Terrorism/National Security Critical 

       Infrastructure ......................................................................... 28


   8.	 Number of defendants in U.S. District Court in criminal cases 

       terminated in program category Terrorism/National Security

       Critical Infrastructure .............................................................. 30


   9.	 Number of dispositions in U.S. District Court – all occurrences –

       guilty in program category Terrorism/National Security Critical 

       Infrastructure .......................................................................... 32


   10. Number of dispositions in U.S. District Court guilty in program

       category Terrorism/National Security Critical Infrastructure.......... 34


   11. Number of Terrorism/National Security Critical Infrastructure

       defendants sentenced to prison ................................................ 36


OIG Conclusions ................................................................................ 37

Recommendations ............................................................................. 38


STATEMENT ON INTERNAL CONTROLS........................................... 40


STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS..... 41


APPENDIX I – AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY.... 42


APPENDIX II – OTHER PRIOR AUDITS AND INSPECTIONS THAT 

REVIEWED OR TOUCHED UPON THE ACCURACY OF TERRORISM­
RELATED STATISTICS REPORTED BY THE DEPARTMENT ................. 54


APPENDIX III – THE EXECUTIVE OFFICE FOR UNITED STATES

ATTORNEY’S RESPONSE TO THE DRAFT AUDIT REPORT ................. 57


APPENDIX IV – OFFICE OF THE INSPECTOR GENERAL ANALYSIS

AND SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT... 60

                                   INTRODUCTION

      After the terrorist attacks of September 11, 2001, the Department of
Justice (Department) made the prevention of terrorism and promotion of
America’s security its primary strategic goal. 1 Department resources
devoted to preventing terrorism and promoting the nation’s security have
increased from approximately $737 million in fiscal year (FY) 2001 to
approximately $5.26 billion in FY 2012, an increase of 614 percent. In its
FY 2003 – 2008 strategic plan, the Department established the following
three objectives to accomplish its terrorism strategic goal:

       •	 Prevent, disrupt, and defeat terrorist operations before they occur.

       •	 Investigate and prosecute those who have committed, or intend to
          commit, terrorist acts in the United States.

       •	 Combat espionage against the United States by strengthening
          counterintelligence capabilities. 2

      To show how the Department has performed against these objectives,
the Department and its component agencies gather, classify, and report a
wide range of terrorism-related statistics. For example, some of the
terrorism-related statistics reported by the Department’s Executive Office for
United States Attorneys (EOUSA) were the:

       •	 number of criminal appeals filed,

       •	 number of criminal cases in U.S. District Court terminated, 3

       •	 number of criminal cases in U.S. District Court pending,

       •	 number of defendants in U.S. District Court in criminal cases filed,

       •	 number of defendants in U.S. District Court in criminal cases
          terminated,



       1
           U.S. Department of Justice, Strategic Plan, Fiscal Years 2012 – 2016.
       2
         The Department subsequently made minor revisions to the objectives for
accomplishing its terrorism strategic goal as noted in the Department’s Strategic Plan.
       3
         EOUSA defines a criminal case as terminated when the case no longer has any
pending charges against any defendants at the end of the reporting period.



                                               1

      •   number of dispositions in U.S. District Court guilty, and

      •   number of defendants sentenced to prison.

      The Department and its components regularly report such statistics in
budgets, annual financial statements and statistical reports, the Office of
Management and Budget’s Performance Assessment Rating Tool,
performance plans, congressional testimony, speeches, press releases,
publications, and websites. 4

Audit Purpose and Scope

       The purpose of our follow-up audit was to determine what actions
EOUSA took in response to our 2007 audit and whether those actions
improved EOUSA’s ability to gather, track, classify, verify, and report
accurate terrorism-related statistics. The Department relies on EOUSA and
other components to implement its counterterrorism strategies. EOUSA
collects a variety of terrorism-related statistics measuring these
counterterrorism efforts.

      We identified the terrorism-related statistics reported by EOUSA by:

      •   interviewing officials from EOUSA, and

      •   analyzing budget submissions and annual statistical reports.

      We identified 39 unique terrorism-related statistics that EOUSA
reported 72 times in budget submissions or in its Annual Statistical Report
for FYs 2009 through 2012. The 39 statistics are listed in Appendix I.

       We interviewed EOUSA officials and reviewed documents showing the
actions EOUSA took in response to our prior audit. To assess whether
EOUSA’s actions in response to the 2007 audit improved its ability to gather,
track, classify, verify, and report accurate terrorism-related statistics, we
selected the first 11 statistics shown in Appendix I to test whether the
statistics were accurate. We selected these 11 statistics based on: (1) our
assessment of the significance of the statistic to the Department’s
counterterrorism efforts; (2) risk factors such as the number of times the
statistic was reported, the extent to which internal controls were established
and documented, and the extent we found inconsistencies in the statistics

      4
        The Performance Assessment Rating Tool is used to identify the strengths and
weaknesses of federal programs and to develop funding and management decisions aimed
at making the programs more effective.



                                          2

reported; and (3) whether the statistic was reviewed in the prior audit. We
found that EOUSA reported the 11 statistics a total of 21 times.

       We analyzed documentation and conducted interviews with EOUSA
officials to determine if the information reported for each statistic was
accurate. In some cases we reviewed documentation for each item counted
in the statistic reported. In other cases we reviewed documentation for a
sample of the items counted. 5

      More details about our methodology for selecting and evaluating the
accuracy of the terrorism-related statistics reported by EOUSA are contained
in Appendix I. The results of our audit work and testing are reported in the
Finding and Recommendations section of the report.

Prior OIG Audit

       In February 2007, the OIG issued an audit report on the Department’s
internal controls over reporting terrorism-related statistics. 6 The audit found
that the Department components did not accurately report terrorism-related
statistics. The Department components lacked adequate internal controls for
gathering, verifying, and reporting terrorism-related statistics. Regarding
EOUSA, our 2007 audit found that EOUSA inaccurately reported the 11
statistics we tested. We determined that EOUSA should improve its
procedures for gathering and reporting statistics. For the 11 statistics we
tested, we found that:

       •	 six statistics were significantly overstated,

       •	 two statistics were significantly understated,

       •	 one statistic was overstated by a minor amount,

       •	 one statistic was understated by a minor amount, and

       •	 one statistic that was reported three times was significantly
          overstated twice and significantly understated the third time it was
          reported.


       5
          For those statistics where we reviewed a sample of items counted, the number of
incorrectly reported transactions could have been higher if we had conducted a 100 percent
review of items reported.
       6
          U.S. Department of Justice Office of the Inspector General, The Department of
Justice’s Internal Controls over Terrorism Reporting, Audit Report 07-20 (February 2007).



                                             3

       Our 2007 audit found that the statistics were inaccurately reported
primarily because: (1) EOUSA and the U.S. Attorneys’ Offices (USAO)
lacked strong internal controls for verifying the accuracy of the LIONS data,
(2) the USAOs could not provide support to show subjects were linked to
terrorism, (3) the cases were not filed in the year reported or the USAOs
could not provide documentation to show the cases were filed in the year
reported, and (4) the USAOs had not finished coding their cases in LIONS
prior to the close of the fiscal year.

       We made six recommendations to strengthen EOUSA’s and the USAO’s
internal controls for accurate collection and reporting of terrorism-related
statistics. We recommended that EOUSA:

      (1) establish and document internal control procedures for gathering,
          verifying, and reporting terrorism-related statistics;

      (2) maintain documentation to identify the source of all terrorism-
          related statistics reported in official operational documents such as
          budget requests, performance plans, statistical reports, and
          others;

      (3) maintain documentation of the procedures and systems used to
          gather or track the statistics reported;

      (4) maintain documentation of the methodologies and procedures used
          to verify the accuracy of the statistics reported; and

      (5) ensure that terrorism-related statistics are not reported unless
          evidence is maintained to support the statistics.

We also recommended that EOUSA and the USAOs:

      (6) establish and implement procedures to recode transactions in
          LIONS when investigations that began as terrorism-related
          investigations do not link the case defendants to terrorist activity.

      This current audit is a follow-up audit to our 2007 audit. In the
Finding and Recommendations section of this report, we discuss in detail the
corrective actions that EOUSA took in response to our prior
recommendations, as well as the results of our testing to determine whether
those actions improved EOUSA’s ability to gather, track, classify, verify, and
report accurate terrorism-related statistics.




                                       4

       Appendix II discusses other previous audits and inspections completed
by the OIG and Government Accountability Office (GAO) prior to our 2007
audit that reviewed or touched upon the accuracy of terrorism-related
statistics reported by the Department.




                                     5

                   FINDING AND RECOMMENDATIONS

       ACTIONS TAKEN TO IMPLEMENT THE

       RECOMMENDATIONS FROM OUR 2007 AUDIT

       WERE NOT EFFECTIVE AT ENSURING EOUSA

       ACCURATELY REPORTED TERRORISM-RELATED

       STATISTICS


       Although EOUSA revised its procedures for gathering,
       classifying, and reporting terrorism-related statistics based
       on the recommendations from our 2007 audit, EOUSA’s
       implementation of the revised procedures was not effective
       at ensuring that terrorism-related statistics were reported
       accurately. EOUSA corrected the issue noted in our 2007
       audit report related to reporting statistics as terrorism-
       related that were not terrorism-related. However, EOUSA
       inaccurately reported all 11 statistics we tested during this
       follow-up, most by significant margins. 7 The inaccuracies
       indicate a need for EOUSA to further strengthen
       implementation of controls for gathering, verifying, and
       reporting terrorism-related statistics. Accurate statistics
       are important as the data is used by Department
       management and Congress to make budgetary and
       operational decisions.

EOUSA’s Implementation of Controls Developed in Response to Our
2007 Audit Recommendations

       In response to the recommendations in our 2007 audit report, in
January 2007 EOUSA informed us that it would rename its anti-terrorism
program category code and would modify and clarify its definition to
eliminate any misunderstanding regarding its meaning. In addition, EOUSA
stated it would review its internal controls to determine what improvements
could be made. As a result, effective October 1, 2007, EOUSA replaced its
anti-terrorism codes with a new code titled National Security/Critical
Infrastructure Protection. The new code is defined as any matter or case
that is brought to protect against vulnerabilities to, or restore the integrity
of, public or non-public infrastructure that is critical to our national security.
EOUSA officials explained to us that, in renaming and modifying its anti­
terrorism code, EOUSA did not plan to create a program code solely for

       7
          For the purposes of this audit, we considered the misreporting of a statistic as
significant if the statistic was either overstated or understated by 10 percent or more.



                                              6

those defendants who have links to terrorist activity. Rather, EOUSA
intended to include those who are investigated or charged with non-
terrorism charges among the other matters coded with the new National
Security/Critical Infrastructure Protection code. EOUSA incorporated the
new code into release number 5.3 of the Legal Information Office Network
System (LIONS) Manual published in November 2010. The newly
established code and definition mostly corrected the issue noted in our 2007
audit report related to reporting statistics as terrorism-related that were not
terrorism-related. 8

       EOUSA also implemented two new internal control procedures for
coding and reporting terrorism-related statistics, and for collecting or
disseminating terrorism, anti-terrorism, or national security-related
statistics. However, as discussed in the following subsections, EOUSA’s
implementation of these new controls was not fully effective.

Control Procedure for Coding and Reporting Terrorism-related Statistics

      EOUSA’s new control procedure for coding and reporting terrorism-
related statistics provided that a log of all requests for data based on
terrorism or national security criminal program codes would be maintained
within the office of the Counsel to the Director’s Staff. EOUSA required the
log to show: (1) the date of the data request, (2) who made the data
request, (3) the data being requested, (4) the source of the data, (5) when
and to whom the data was sent, and (6) the method used to gather the
data. In addition to maintaining the log, the Counsel to the Director’s Staff
was required to keep an electronic or hard copy of both the request and the
actual responsive data. However, we found that the log, data requests, and
responsive data were not maintained in FYs 2010 and 2011 as required by
the internal control. We found that:

       •	 the Counsel to the Director’s Staff allowed an official of the Data
          Analysis Staff to retain and maintain the log,

       •	 methodologies for gathering statistics were not retained for 5 of the
          11 statistics we tested,

       •	 the FY 2010 log showed an entry for the FY 2009 U.S. Attorneys’
          Annual Statistical Report, but no documentation was included with

       8
           For 7 of the 11 statistics we tested during the follow-up audit, we found that
EOUSA included transactions that were improperly coded as terrorism-related or national
security-related by the applicable United States Attorneys’ Office. However, as discussed
later in the report, the number of miscoded transactions we identified was small.



                                             7

           the log to support the statistics contained in the statistical report,
           and

       •   the FY 2011 log did not provide an entry for the FY 2010
           U.S. Attorneys’ Annual Statistical Report and did not include
           documentation to support the statistics reported in the FY 2010
           annual report. 9

      An official of the Counsel to the Director’s Staff told us that the
Counsel to the Director’s Staff did not continue to maintain the log because
the number of requests for EOUSA data dropped significantly after FY 2009.
Consequently, the Counsel allowed an official of the Data Analysis Staff to
retain and maintain the log because most of the remaining requests came
from that section.

       However, an official of the Data Analysis Staff told us that the log had
not been officially assigned to be retained and maintained by the Data
Analysis Staff. The official said that the log had been maintained by various
staffs within EOUSA over the last few years even though the established
procedure required that it be maintained by the Counsel to the Director’s
Staff. The official said that this situation may explain why the log had not
been kept up-to-date with a complete list of statistics requested, the
responsive data, and methodologies for collecting those statistics. During
our audit, the Data Analysis Staff took formal responsibility for retaining and
maintaining EOUSA’s log.

      Because the log and corresponding support were not previously
maintained as required, EOUSA had difficulty providing us accurate lists for 5
of the 11 statistics selected for testing. An official of the Data Analysis Staff
told us that, as the result of an oversight, the FY 2010 U.S. Attorneys’
Annual Statistical Report was not recorded in the FY 2011 log. The official
subsequently showed us that this oversight was corrected by updating the
FY 2011 log to reflect the FY 2010 U.S. Attorneys’ Annual Statistical Report.
The official believed that the schedules listed in the annual report were the
support for the reported statistics. However, the schedules in the annual
reports only show the numbers reported for each statistic, but do not show
necessary supporting details such as case numbers, defendant names, and
disposition dates.



       9
          EOUSA’s Data Analysis Staff serves in an assistance, advisory, and resource
capacity for components of EOUSA. The staff works to assist managers in all aspects of
data analysis, ensure quality control in the use of data, and conduct data analysis for and
on behalf of Department of Justice officials and the USAOs.



                                              8

Control Procedure for Collecting or Disseminating Terrorism, Anti-terrorism,
or National Security-related Statistics

      In response to our 2007 audit, EOUSA also established a control
procedure to ensure that all terrorism, anti-terrorism, national security-
related, and export enforcement matters and cases were promptly entered
into LIONS. The USAOs were instructed to treat coding cases as a priority
and attempt to enter case data into LIONS as quickly as possible after the
USAO receives the data. However, EOUSA did not establish a specific
deadline for entering case data into LIONS at the end of each fiscal year. As
a result, we found that case data was not always entered into LIONS
promptly enough to allow for accurate reporting of data for a prior year.
This problem occurred at all eight USAOs we reviewed. 10 USAO officials told
us that this problem had occurred because they placed a higher priority on
opening and prosecuting cases, had limited staff, were under tight time
constraints, and did not provide case files to staff for docketing in a timely
manner. 11 They also said that some of their legal assistants lacked an
adequate understanding of LIONS.

      In summary, we found that although EOUSA has developed an internal
control structure to improve its reporting of statistics, it has not effectively
implemented the control procedures to ensure accurate reporting of
terrorism-related statistics.

Accuracy of EOUSA Terrorism-related Statistics Reported
Subsequent to Our 2007 Audit

       For this follow-up audit, we identified 39 unique terrorism-related
statistics that were reported a total of 72 times by EOUSA in annual
statistical reports and budget submission documents for FY 2009 through
FY 2012. Appendix I contains a listing of the 39 statistics.

      We selected 11 of the 39 statistics for detailed testing. We then
selected transactions reported for each of the 11 statistics and we reviewed
documentation in the Public Access to Court Electronic Records (PACER)
system to verify the date of each matter or case that EOUSA reported as

       10
            We performed on-site reviews at the U.S. Attorney’s Offices in the Northern
District of California, Central District of California, Western District of Texas, District of
Arizona, Southern District of Florida, Southern District of New York, Eastern District of
Michigan, and the District of Columbia.

       11
         Docketing is the process of recording a formal abridged record of the court
proceedings in a legal action.




                                                 9

having occurred in FYs 2009 and 2010. 12 If the documentation in the PACER
system did not corroborate EOUSA’s reported data, or if the data we sought
was not available in the PACER system, we asked EOUSA officials to provide
documentation to support its reported statistic.

      As shown in the following table, we found that EOUSA did not
accurately report the 11 statistics we tested. Eight of the 11 statistics were
inaccurately reported by significant margins. The inaccurate reporting
indicates a need for EOUSA to strengthen further the application of controls
for gathering, verifying, and reporting its terrorism-related statistics.

          Description of EOUSA                            Results of OIG Analysis
            Statistic Reported                               and Sample Testing
1.a. Number of criminal appeals filed in        In the FY 2009 U.S. Attorneys’ Annual
     program category Terrorism/National        Statistical Report, EOUSA reported that 45
     Security Critical Infrastructure in        criminal appeals were filed in FY 2009. We
     FY 2009 13                                 excluded from our review one appeal
                                                because the appeal was filed by a juvenile
                                                whose case was sealed. 14 We tested the
                                                remaining 44 appealed cases and found that
                                                9 of the 44 cases (20 percent) had first
                                                appeals filed prior to FY 2009 and therefore
                                                should not have been counted in FY 2009.




       12
           PACER is an internet-accessible electronic public access service that allows users
to obtain case information from federal appellate, district, and bankruptcy courts.
       13
           According to an EOUSA official, the FY 2009 U.S. Attorneys’ Annual Statistical
Report mistakenly indicated that this statistic was for the previous program category
Terrorism/Anti-Terrorism instead of the replacement program category Terrorism/National
Security Critical Infrastructure. EOUSA’s methodology for counting appeals in a fiscal year
is to count all criminal cases for which the first defendant appeal associated with the case is
received within the fiscal year reporting period.
       14
          Federal case records may be sealed by statute, rule, or court order to prevent the
records from being publicly available. Statutes provide for sealing documents in specific
proceedings, such as juvenile or grand jury proceedings. A federal rule of civil procedure
may require the sealing of documents to protect a party or person from annoyance,
embarrassment, oppression, or undue burden or expense. Courts sometimes seal
documents that contain sensitive information, such as classified information affecting
national security.



                                              10

          Description of EOUSA                          Results of OIG Analysis
            Statistic Reported                            and Sample Testing
1.b. Number of criminal appeals filed in     In the FY 2010 U.S. Attorneys’ Annual
     program category Terrorism/National     Statistical Report, EOUSA reported that 43
     Security Critical Infrastructure in     criminal appeals were filed in FY 2010. We
     FY 2010                                 tested all 43 appealed cases and found that 5
                                             of the 43 appeals (12 percent) were
                                             incorrectly counted in FY 2010. Three of the
                                             five appeals had first appeals filed prior to
                                             FY 2010 and therefore should not have been
                                             counted in FY 2010. (The first appeals in
                                             these three instances were all filed before
                                             FY 2009, so those appeals had no effect on
                                             the appeals reported for FY 2009 that are
                                             discussed above.) In addition, two of the five
                                             appeals were incorrectly coded as
                                             Terrorism/National Security Critical
                                             Infrastructure cases and therefore should not
                                             have been included in this statistic.
2.   Number of criminal cases in U.S.        In the FY 2010 U.S. Attorneys’ Annual
     District Court – all occurrences –      Statistical Report, EOUSA reported 258 cases
     terminated in program category          of all occurrences that were terminated. We
     Terrorism/National Security Critical    found that the cases for 32 of the 258
     Infrastructure during FY 2010 15        occurrences (12 percent) were terminated
                                             prior to FY 2010 and should not have been
                                             counted for FY 2010.




      15
          EOUSA’s methodology for counting terminated cases is to count all criminal cases
for which no charged defendants are still pending at the end of the fiscal year reporting
period. An EOUSA official explained that a statistic shown as “all occurrences” counts all
program category codes assigned to a defendant’s case, whereas a statistic that does not
show “all occurrences” only counts the primary program category code assigned to the case.




                                            11
           Description of EOUSA                          Results of OIG Analysis
             Statistic Reported                            and Sample Testing
3.   Number of criminal cases in U.S.         In the FY 2009 U.S. Attorneys’ Annual
     District Court pending in program        Statistical Report, EOUSA reported 620 cases
     category Terrorism/National Security     pending. We selected a sample of 207 of the
     Critical Infrastructure in FY 2009 16    620 pending cases for testing. We excluded
                                              from testing 9 of the 207 sampled cases
                                              because the cases were sealed. For the
                                              remaining 198 cases, we found that 3 of the
                                              cases had been terminated before the end of
                                              FY 2009 and should not have been counted
                                              for FY 2009. In addition, we found one case
                                              that was incorrectly coded as a
                                              Terrorism/National Security Critical
                                              Infrastructure case and therefore should not
                                              have been included in this statistic.
4.a. Number of criminal cases in U.S.         In the FY 2009 U.S. Attorneys’ Annual
     District Court terminated in program     Statistical Report, EOUSA reported that 234
     category Terrorism/National Security     criminal cases were terminated. We found
     Critical Infrastructure in FY 2009       that 30 of the 234 reported cases (13
                                              percent) were terminated prior to FY 2009
                                              and should not have been counted for
                                                        17
                                              FY 2009.

4.b. Number of criminal cases in U.S.         In the FY 2010 U.S. Attorneys’ Annual
     District Court terminated in program     Statistical Report, EOUSA reported that 220
     category Terrorism/National Security     criminal cases were terminated. We found
     Critical Infrastructure in FY 2010       that 25 of the 220 reported cases (11
                                              percent) were not terminated in FY 2010 and
                                              should not have been counted for FY 2010.
                                              These 25 cases were terminated in FY 2009
                                              and should have been reported as such, as
                                              discussed above.




       16
          According to an EOUSA official, the FY 2009 U.S. Attorneys’ Annual Statistical
Report mistakenly indicated that this statistic was for the previous program category
Terrorism/Anti-Terrorism instead of the replacement program category Terrorism/National
Security Critical Infrastructure. EOUSA’s methodology for reporting pending cases is to
count cases for which all criminal defendants associated exclusively with the cases have not
yet been disposed of before the end of the fiscal year reporting period.

       17
          In addition, as discussed below, we found 25 cases reported as terminated in
FY 2010 that were terminated in FY 2009. These 25 cases should have been counted in
FY 2009 but were not. On balance, these errors resulted in EOUSA overstating the number
of terminated cases for FY 2009 by 5.




                                             12

          Description of EOUSA                             Results of OIG Analysis
            Statistic Reported                               and Sample Testing
5.   Number of defendants in U.S. District      In the FY 2010 U.S. Attorneys’ Annual
     Court – all occurrences – in criminal      Statistical Report, EOUSA reported 439
     cases filed in program category            defendants in criminal cases filed with all
     Terrorism/National Security Critical       occurrences. We tested a sample of 147 of
     Infrastructure in FY 2010 18               the 439 defendants in filed cases with all
                                                occurrences and found that 7 of the 147
                                                defendants reported were for cases not filed
                                                in FY 2010 and should not have been counted
                                                in FY 2010. In addition, we found two cases
                                                that were incorrectly coded as a
                                                Terrorism/National Security Critical
                                                Infrastructure case and therefore should not
                                                have been included in this statistic.
6.   Number of defendants in U.S. District      In the FY 2010 U.S. Attorneys’ Annual
     Court – all occurrences – in criminal      Statistical Report, EOUSA reported 406
     cases terminated in program category       defendants in cases terminated with all
     Terrorism/National Security Critical       occurrences. We found that the cases for 55
     Infrastructure during FY 2010              of the 406 defendants (14 percent) were
                                                actually terminated prior to FY 2010 and
                                                should not have been counted for FY 2010.




       18
           EOUSA’s methodology for reporting the number of defendants in cases filed is to
count all criminal defendants who have been newly associated with a court record pertaining
to a criminal case within the fiscal year reporting period. The associated filing date and the
associated instrument is one of the following: information, indictment, superseding
information, superseding indictment or Rule 20. Rule 20 of the Federal Rules of Criminal
Procedure allows a defendant who is arrested, held, or present in a district other than that
in which an indictment, information or complaint is pending, to state in writing a wish to
plead guilty or nolo contendere. The defendant also waives trial in the district in which the
prosecution was initiated and consents to disposition of the action in the district in which he
was arrested, held, or present, subject to the approval of the United States Attorney for
each district.




                                              13

           Description of EOUSA                             Results of OIG Analysis
             Statistic Reported                                and Sample Testing
7.a. Number of defendants in U.S. District       In the FY 2009 U.S. Attorneys’ Annual
     Court in criminal cases filed in program    Statistical Report and the U.S. Attorneys’ FY
     category Terrorism/National Security        2011 Performance Budget Congressional
                                        19       Submission, EOUSA reported 311 defendants
     Critical Infrastructure in FY 2009
                                                 in cases filed. We selected a sample of 104
                                                 of the 311 defendants and excluded 1
                                                 defendant whose case was sealed. We found
                                                 that 6 of the remaining 103 defendants
                                                 reported were for cases filed prior to FY 2009
                                                 and should not have been counted for
                                                 FY 2009. 20 In addition, we found that the
                                                 cases for two defendants were incorrectly
                                                 coded as a Terrorism/National Security
                                                 Critical Infrastructure case and therefore
                                                 should not have been included in this
                                                 statistic.

7.b. Number of defendants in U.S. District       In the FY 2010 U.S. Attorneys’ Annual
     Court in criminal cases filed in program    Statistical Report and the U.S. Attorneys’ FY
     category Terrorism/National Security        2012 Performance Budget Congressional
     Critical Infrastructure in FY 2010          Submission, EOUSA reported 385 defendants
                                                 in cases filed. We selected a sample of 129
                                                 of the 385 defendants and excluded 1
                                                 defendant whose case was sealed. We found
                                                 that 9 of the remaining 128 defendants
                                                 reported were for cases not filed in FY 2010
                                                 and therefore should not have been counted
                                                 for FY 2010. Six of the nine defendants were
                                                 for cases that were filed in FY 2009 but not
                                                 counted as such. In addition, we found that
                                                 the case for one defendant was incorrectly
                                                 coded as a Terrorism/National Security
                                                 Critical Infrastructure case and therefore
                                                 should not have been included in this
                                                 statistic.




       19
          According to an EOUSA official, the U.S. Attorneys’ FY 2011 and FY 2012
Performance Budget Congressional Submissions mistakenly indicated that statistic 7 for
both years was for the program category Terrorism/Terrorist-related instead of the current
program category Terrorism/National Security Critical Infrastructure.
       20
          In addition, as noted below, six defendants counted in FY 2010 should have been
counted in FY 2009 but were not. Because these two errors offset each other, EOUSA’s
reported number was ultimately accurate.




                                                14

          Description of EOUSA                             Results of OIG Analysis
            Statistic Reported                               and Sample Testing
8.a. Number of defendants in U.S. District      In the FY 2009 U.S. Attorneys’ Annual
     Court in criminal cases terminated in      Statistical Report, EOUSA reported 367
     program category Terrorism/National        defendants were in terminated cases. We
     Security Critical Infrastructure during    found that 53 of the 367 defendants (14
     FY 2009                                    percent) were associated with cases
                                                terminated prior to FY 2009 and therefore
                                                should not have been counted. 21 In addition,
                                                we found that the case for 1 of the 53
                                                defendants was incorrectly coded as a
                                                Terrorism/National Security Critical
                                                Infrastructure case.

8.b. Number of defendants in U.S. District      In the FY 2010 U.S. Attorneys’ Annual
     Court in criminal cases terminated in      Statistical Report, EOUSA reported 347
     program category Terrorism/National        defendants in cases terminated. We found
     Security Critical Infrastructure during    that the cases for 45 of the 347 defendants
     FY 2010                                    (13 percent) were terminated in FY 2009 and
                                                therefore should not have been counted for
                                                FY 2010. Further, while 30 of these 45
                                                defendants were not reported as terminated
                                                in FY 2009, the remaining 15 defendants
                                                were, resulting in double counting.
9.   Number of dispositions in U.S. District    In the FY 2010 U.S. Attorneys’ Annual
     Court – all occurrences – guilty in        Statistical Report, EOUSA reported 341
     program category Terrorism/National        dispositions adjudged guilty. We tested a
     Security Critical Infrastructure during    sample of 114 defendants and found that 21
     FY 2010 22                                 of the 114 defendants (18 percent) were
                                                found guilty prior to FY 2010 and should not
                                                have been counted for FY 2010. In addition,
                                                we found that the cases for four defendants
                                                were incorrectly coded as Terrorism/National
                                                Security Critical Infrastructure cases. One of
                                                these 4 defendants was included in the 21
                                                defendants with untimely guilty dispositions.



       21
          In addition, as discussed below, we found that the cases for 30 defendants
reported as terminated in FY 2010 were terminated in FY 2009 but not reported in FY 2009.
On balance, these two errors resulted in EOUSA overstating the number of defendants in
FY 2009 by 23.
       22
            EOUSA’s methodology for counting the number of guilty dispositions is to count
defendants who pled guilty and those who were found guilty by a trial verdict. Guilty pleas
included all criminal defendants whose most favorable charge disposition, from the
government’s perspective, is guilty, adjudged juvenile delinquent, or nolo contendere. The
guilty trial verdict included all criminal defendants for which the most favorable charge
disposition is guilty or adjudged juvenile delinquent by reason of Bench Trial Verdict (District
Court), Bench Trial Verdict (Magistrate Court), Jury Trial Verdict (District Court), or Jury
Trial Verdict (Magistrate Court).




                                               15

          Description of EOUSA                              Results of OIG Analysis
            Statistic Reported                                 and Sample Testing
10.a. Number of dispositions in U.S. District    In the FY 2009 U.S. Attorneys’ Annual
      Court guilty in program category           Statistical Report and the U.S. Attorneys’
      Terrorism/National Security Critical       FY 2011 Performance Budget Congressional
      Infrastructure during FY 2009 23           Submission, EOUSA reported 307 dispositions
                                                 adjudged guilty. We tested a sample of 103
                                                 defendants and found that 11 of the 103
                                                 defendants (11 percent) were not adjudged
                                                 guilty in FY 2009 and should not have been
                                                 counted for FY 2009. 24 In addition, we found
                                                 that the case for one defendant was
                                                 incorrectly coded as a Terrorism/National
                                                 Security Critical Infrastructure case and
                                                 therefore should not have been included in
                                                 this statistic.

10.b. Number of dispositions in U.S. District    In the FY 2010 U.S. Attorneys’ Annual
      Court guilty in program category           Statistical Report and the U.S. Attorneys’
      Terrorism/National Security Critical       FY 2012 Performance Budget Congressional
      Infrastructure during FY 2010              Submission, EOUSA reported 292 dispositions
                                                 adjudged guilty. We tested a sample of 98
                                                 defendants and found that 20 of the 98
                                                 defendants (20 percent) were not adjudged
                                                 guilty in FY 2010 and should not have been
                                                 counted for FY 2010. Of these 20
                                                 defendants, 14 were found guilty in FY 2009
                                                 but not reported as guilty until FY 2010.
                                                 Three of the 20 defendants were found guilty
                                                 in FY 2009 but reported as guilty in both
                                                 FY 2009 and FY 2010, resulting in double
                                                 counting. The remaining three defendants
                                                 were found guilty prior to FY 2009 but were
                                                 not reported as guilty until FY 2010.




       23
           According to an EOUSA official, the U.S. Attorneys’ FY 2011 and FY 2012
Performance Budget Congressional Submissions mistakenly indicated that statistic 10 for
both FY 2009 and FY 2010 was for the program category Terrorism/Terrorist-related instead
of the current program category Terrorism/National Security Critical Infrastructure.
       24
           In addition, as discussed below, we found 14 defendants reported as guilty in
FY 2010 that should have been reported in FY 2009 instead. On balance, these two errors
resulted in EOUSA understating the defendants we tested for FY 2009 by 3.



                                                16

          Description of EOUSA                          Results of OIG Analysis
            Statistic Reported                            and Sample Testing
11.a. Number of Terrorism/National           In the FY 2011 Performance Budget
      Security Critical Infrastructure       Congressional Submission, EOUSA reported
      defendants sentenced to prison in      171 defendants sentenced to prison. We
      FY 2009 25                             tested a sample of 57 defendants and found
                                             that 2 of the 57 defendants were sentenced
                                             in FY 2008 and should not have been counted
                                             for FY 2009. 26

11.b. Number of Terrorism/National         In the FY 2012 Performance Budget
      Security Critical Infrastructure     Congressional Submission, EOUSA reported
      defendants sentenced to prison in    168 defendants sentenced to prison. We
      FY 2010                              tested a sample of 56 of the 168 defendants
                                           and found that 9 of the 56 defendants (16
                                           percent) were sentenced prior to FY 2010
                                           and should not have been counted for
                                           FY 2010. One defendant was sentenced in
                                           FY 2007 and eight defendants were
                                           sentenced in FY 2009.
Source: OIG analysis of EOUSA documentation for the statistics tested

      Based on our discussions with EOUSA and USAO officials, as well as

the results of our testing, we determined that the statistics reported by

EOUSA were inaccurate for the following reasons.


       •	 EOUSA uses the National LIONS (NLIONS) system for accumulating,
          tracking, and reporting nationwide statistical data. NLIONS is
          populated with data from LIONS in which court matters and cases
          are entered by personnel at the USAOs. EOUSA’s guidance
          specifies that the coding of terrorism, anti-terrorism, and national
          security-related matters is a priority and the guidance requires
          USAOs to promptly or as quickly as possible enter associated
          matters and cases into LIONS to ensure the highest possible level
          of factual accuracy. EOUSA officials explained to us that they
          report statistics using the system disposition date, which is the date
          USAO personnel enter the data into LIONS. According to EOUSA
          officials, for any fiscal year LIONS can only retrieve data that was

       25
           According to an EOUSA official, the U.S. Attorneys’ FY 2011 and FY 2012
Performance Budget Congressional Submissions mistakenly indicated that statistic 11 for
both years was for the program category Terrorism/Terrorist-related instead of the current
program category Terrorism/National Security Critical Infrastructure. EOUSA’s methodology
for reporting the number of defendants sentenced to prison is to count all criminal
defendants sentenced to prison within the fiscal year reporting period.
       26
          In addition, as discussed below, we found eight defendants who were reported as
sentenced in FY 2010 but should have been reported in FY 2009. On balance, these two
errors resulted in EOUSA understating the number of defendants we tested by 6 in FY 2009.



                                           17

            entered into LIONS during the same fiscal year, and consequently,
            using the system disposition date should not affect the accuracy of
            statistics so long as matters and cases are entered into LIONS prior
            to the end of the fiscal year. However, EOUSA’s guidance did not
            define prompt data entry as occurring prior to the end of the
            relevant fiscal year, and as a result, USAO personnel did not always
            enter case data into LIONS prior to the end of the fiscal year. This
            caused inaccurate reporting of statistics.

       •	 EOUSA did not define, or fully define, in its NLIONS business rules
          the methodology for some statistics reported. 27 Specifically, the
          rules did not contain: (1) a definition of the statistic on the number
          of defendants sentenced to prison, or (2) an explanation of what is
          meant for statistics labeled as “all occurrences.” In addition,
          changes to the methodology for the statistic on criminal appeals
          filed, which EOUSA officials made during the review period, were
          not included in the business rules. As a result, EOUSA had not
          clearly defined how these statistics were intended to be calculated.

       •	 USAOs used resources to support other work that they deemed to
          be a higher priority. In addition, the USAOs provided other reasons
          for the exceptions we found, including: (1) limited staff;
          (2) docketing staff did not consider data entry or updating of cases
          a priority at the time; (3) time constraints due to on-going trials;
          (4) Assistant U.S. Attorneys not returning the case files to the
          paralegals when major events occur in cases; (5) paralegals waiting
          until the end of the bi-annual period to make entries into LIONS;
          (6) staff not having an in-depth knowledge of LIONS; (7) Assistant
          U.S. Attorneys are not appropriately invested in ensuring that
          LIONS is accurate because they can obtain updated and accurate
          case data through PACER, and because the statistics and tracking
          information in LIONS does not support the prosecution of specific
          cases; and (8) the perception among some USAO employees that
          LIONS experiences frequent technical problems during which it is
          inaccessible.

       •	 EOUSA’s Counsel to the Director’s Staff did not always maintain the
          statistics reporting log, and did not include in the log all statistics
          reported, the methodologies for how the statistics were developed,
          and the responsive data to support the statistics reported. As a
          result, EOUSA had not clearly defined how some statistics were

       27
            The NLIONS business rules are a collection of the rules used to generate EOUSA
statistical reports and are contained in the NLIONS Business Rules Requirement Document.



                                            18

           intended to be calculated and whether the reported statistics were
           supported at the time reported.

      Our detailed testing results for the 11 statistics are discussed in the
following sections.

1. 	Number of criminal appeals filed in program category
    Terrorism/National Security Critical Infrastructure 28

Fiscal Year 2009 U.S. Attorneys’ Annual Statistical Report

     In the FY 2009 U.S. Attorneys’ Annual Statistical Report, EOUSA
reported that 45 criminal appeals were filed in the program category of
Terrorism/National Security Critical Infrastructure during FY 2009. EOUSA
uses NLIONS to capture data for reporting in the annual statistical reports
and budget submissions. According to an EOUSA official, the methodology
for counting data to report most statistics is defined in EOUSA’s NLIONS
business rules. For this statistic, the NLIONS business rules provide that the
appeal is counted if the appeal: (1) is the first defendant appeal associated
with the case, (2) is received within the fiscal year reporting period, and
(3) has a primary program category code of Terrorism/National Security
Critical Infrastructure. Subsequent appeals filed in the case are not counted
for this statistic.

      We requested that EOUSA staff provide us with a listing of the 45
criminal appeals reported as filed during FY 2009. EOUSA provided a listing
containing 210 appeals filed in FY 2009. On this listing, an EOUSA official
highlighted the 45 appeals for FY 2009 that the official said were counted to
report the statistic on appeals filed. One of the 45 appeals was for a juvenile
and the case was sealed. We excluded this appeal from our testing.

       For the remaining 44 appeals, we reviewed documentation in the
PACER system to verify that the defendant highlighted by the official was the
first appeal filed in the case. If the documentation in the PACER system
showed that the first appeal filed was filed prior to FY 2009, we asked
EOUSA officials to provide additional information to show why the appeal
was counted for FY 2009. We found that 9 of the 44 highlighted appeals
were not the first appeals filed in the cases. For these nine cases, either the
defendant or a co-defendant had filed an appeal prior to FY 2009.

      28
          According to an EOUSA official, the FY 2009 U.S. Attorneys’ Annual Statistical
Report mistakenly indicated that this statistic was for the previous program category
Terrorism/Anti-Terrorism instead of the replacement program category Terrorism/National
Security Critical Infrastructure.



                                           19

       We inquired about these nine cases. For one of these cases, an
EOUSA official told us that while the defendant filed an appeal on June 23,
2007, the appeal was not entered into LIONS by the applicable USAO until
January 22, 2009, and therefore the appeal was counted as filed in FY 2009.
For the other eight cases, the official explained that these were the first
appeals filed in FY 2009 for these cases. When asked how this explanation
was consistent with the NLIONS business rules, which state that an appeal
should only be counted if it is the first appeal filed in the case, the official
told us that a new methodology was used to count the appeals by which
EOUSA had selected the defendant with the best disposition, first filing date,
latest close date, and the highest participant identification or defendant
number. However, we noted that in a case with multiple defendants there is
no guarantee that these criteria will be sufficient for EOUSA to identify a
single defendant – for example, the defendant with the “best disposition”
may not have the “first filing date.” Therefore, this methodology appears
likely to produce arbitrary results and therefore does not appear sufficient to
us. Moreover, the official had no documented procedures to show the
methodology had been changed from that described in the NLIONS business
rules. We therefore concluded that the nine appeals were not properly
counted in accordance with EOUSA’s established rules, and that if the
methodology EOUSA used to count the appeals had changed, that new
methodology was not properly documented.

      In summary, we found that EOUSA should have reported 35 of the 44
tested appeals in FY 2009 and consequently overstated the reported number
of appeals filed in FY 2009 by 9 appeals, or 26 percent. We consider this
amount of deviation to be significant.

Fiscal Year 2010 U.S. Attorneys’ Annual Statistical Report

      In the FY 2010 U.S. Attorneys’ Annual Statistical Report, EOUSA
reported that 43 criminal appeals were filed in the program category of
Terrorism/National Security Critical Infrastructure in FY 2010.

       We requested that EOUSA provide us with a listing of the 43 criminal
appeals reported as filed in FY 2010. EOUSA provided a listing containing
182 appeals filed in FY 2010. On this listing, an EOUSA official highlighted
the 43 appeals for FY 2010 that the official said were counted to report the
statistic on appeals filed.

        We reviewed the PACER data for the 43 reported appeals and found
that 5 of the appeals should not have been counted in FY 2010 based on the
NLIONS business rules methodology for this statistic. For 3 of the 5 cases,
the first appeal filed in the case was filed in a year prior to FY 2010. For


                                      20

these 3 cases, the first appeal was filed in the case on January 18, 2000;
February 20, 2001; and May 23, 2007, respectively. For the other two
cases, the conviction did not match the program category code Terrorism/
National Security Critical Infrastructure that was assigned by the applicable
USAOs. In one case, the defendant was convicted of animal fighting, but the
USAO coded the case as Domestic Terrorism. In the second case, the
defendant was convicted of bank robbery by force or violence, but the USAO
coded the case as Terrorism Related Hoaxes.

      While these two cases were initially investigated as terrorism cases,
the resulting indictments did not result in terrorism charges. According to
EOUSA policy, because of the charges that resulted from the investigations,
the USAOs should have revised the coding of each case to reflect the actual
indictments and should not have included the cases as part of appeals filed
in program category Terrorism/National Security Critical Infrastructure in
FY 2010.

       The issue of recoding investigations also arose in our 2007 audit, and
we recommended that EOUSA and the USAOs establish and implement
procedures to recode transactions in LIONS when investigations that began
as terrorism-related investigations do not link the case defendants to
terrorist activity. EOUSA agreed with our recommendation and implemented
a system which requires the USAOs to periodically review cases in LIONS
and ensure that the correct criminal program category code has been
applied. We believe the correct criminal program category code was not
applied in these two cases or should have been changed as recommended
and agreed to in our 2007 audit. Accordingly, we conclude that these two
cases should not be included in the results for the number of appeals filed in
the Terrorism/National Security Critical Infrastructure program category
statistic for FY 2010. Also, EOUSA should remind the USAOs to recode
transactions in LIONS when investigations that began as terrorism-related
investigations do not link the case defendants to terrorist activity.

       In summary, EOUSA overstated the number of appeals filed in FY 2010
by 5 appeals, or 13 percent. We consider this amount of deviation to be
significant.




                                     21

2. Number of criminal cases in U.S. District Court – all occurrences –
terminated in program category Terrorism/National Security Critical
Infrastructure29

      In the FY 2010 U.S. Attorneys’ Annual Statistical Report, EOUSA
reported 258 criminal cases, based on all occurrences, that were terminated
in the program category of Terrorism/National Security Critical Infrastructure
during FY 2010.

       EOUSA staff provided a listing of the 258 terminated criminal cases of
all occurrences that it reported. According to EOUSA’s NLIONS business
rules, EOUSA reports the number of criminal cases terminated in program
category Terrorism/National Security Critical Infrastructure by counting all
levels of terrorism or national security critical infrastructure program
category codes in criminal cases for which no charged defendants are still
pending at the end of the fiscal year reporting period. EOUSA’s NLIONS
business rules did not define “all occurrences,” but an EOUSA official
explained to us that “all occurrences” includes all levels of program category
codes and the primary, secondary, and tertiary codes. The primary code is
the main violation charged against a defendant. The secondary and tertiary
codes are the lesser charges against the defendant.

      We initially reviewed PACER data for a sample of 86 of the 258
terminated cases and found that 15 of the 86 cases were not terminated in
FY 2010. Thirteen of the 15 cases were terminated in a fiscal year prior to
FY 2010 and the two remaining cases were still pending at the end of
FY 2010.

       We discussed these discrepancies with an EOUSA official who said that
EOUSA’s terminated statistics are based on the date that USAO personnel
enter the disposition into LIONS instead of the date when the case was
actually terminated. The official told us that the system disposition date is
used for reporting purposes because this date cannot be changed, whereas
the actual termination date can be changed in the system, and therefore
using the system disposition date improves the accuracy of the reported
statistic. However, we found that the time lag between the date the 13
cases were actually terminated and the date the terminations were entered
into the system by the USAOs ranged from 10 to 483 days, and averaged
266 days with a median of 314 days, indicating that the use of the system

      29
           An EOUSA official explained to us that a statistic shown as “all occurrences”
counts all program category codes assigned to a defendant’s case, whereas a statistic that
does not show “all occurrences” only counts the primary program category code assigned to
the case.



                                           22

disposition date was not effective in improving the accuracy of the reported
statistic.

      Based on these results, we subsequently used data provided by EOUSA
to expand our review to all 258 reported cases and found that 32 of the 258
cases were terminated in a fiscal year prior to FY 2010. 30

      As a result, we concluded that EOUSA overstated by 32, or 14 percent,
the reported number of cases actually terminated during FY 2010. We
consider this amount of deviation to be significant. The time lag between
the date these 32 cases were actually terminated and the date the cases
were entered into the system by the USAOs ranged from 1 to 706 days, and
averaged 201 days with a median of 176 days.

3. 	Number of criminal cases in U.S. District Court pending in
    program category Terrorism/National Security Critical
    Infrastructure31

      In the FY 2009 U.S. Attorneys’ Annual Statistical Report, EOUSA
reported that 620 criminal cases were pending in U.S. District Court in the
program category of Terrorism/National Security Critical Infrastructure
during FY 2009.

      EOUSA staff provided a listing of the 620 pending criminal cases.
According to EOUSA’s NLIONS business rules, EOUSA reports cases as
pending if any criminal defendants associated exclusively with the criminal
case have not had a case disposition before the end of the fiscal year.

       We selected a sample of 207 of the 620 pending cases for testing.
Nine of the 207 sampled cases were sealed and we excluded these cases
from testing. We reviewed PACER data and found that 3 of the remaining
198 cases were terminated prior to the end of FY 2009 and should not have
been counted in the FY 2009 statistic. The details of these three cases are
as follows:


       30
          For all statistics related to terminations, we expanded the samples to include all
transactions reported using actual case termination dates provided by EOUSA. We did not
attempt to confirm the actual case termination dates provided by EOUSA to the case
termination dates in PACER.
       31
          According to an EOUSA official, the FY 2009 U.S. Attorneys’ Annual Statistical
Report mistakenly indicated that this statistic was for the previous program category
Terrorism/Anti-Terrorism instead of the replacement program category Terrorism/National
Security Critical Infrastructure.



                                             23

      •	 PACER showed that one case was disposed of on June 25, 2008, but
         the USAO did not enter the disposition into LIONS until May 2,
         2011, which was 1,041 days after the district court terminated the
         case.

      •	 PACER showed that one case was disposed of on December 19,
         2007, but the USAO did not enter the disposition into LIONS until
         February 11, 2011, which was 1,150 days after the district court
         terminated the case.

      •	 PACER showed one case involving six defendants was disposed of
         on August 6, 2007, but as of February 1, 2013, the USAO had not
         entered a disposition for any of the six defendants into LIONS, and
         therefore the case was still shown as pending in LIONS.

      We discussed these discrepancies with an EOUSA official who told us
that because the USAOs did not timely enter the dispositions into LIONS, the
cases were reported as pending in FY 2009. In addition to the untimely
entry of dispositions, we found one other case that was improperly coded as
a Terrorism/National Security Critical Infrastructure case. For this case, the
USAO initially perceived that money derived from criminal trafficking of
cigarettes was being used to support suspected terrorist organizations, but
an USAO official told us that a link or connection was never established.
Consequently, for the cases we reviewed, EOUSA overstated the number of
pending cases by four, or about 2 percent. We consider this amount of
deviation to be insignificant.

4.	 Number of criminal cases in U.S. District Court terminated in
    program category Terrorism/National Security Critical
    Infrastructure

FY 2009 U.S. Attorneys’ Annual Statistical Report

      In the FY 2009 U.S. Attorneys’ Annual Statistical Report, EOUSA
reported that 234 criminal cases were terminated in the program category of
Terrorism/National Security Critical Infrastructure during FY 2009.

      EOUSA staff provided a listing of the 234 terminated criminal cases.
According to EOUSA’s NLIONS business rules, EOUSA reports the number of
criminal cases terminated by counting criminal cases for which no charged
defendants are still pending at the end of the fiscal year. However, as
previously discussed for statistic 2, EOUSA counts the cases terminated
based on the date that USAO personnel enter the disposition into LIONS,
instead of the date when the case was actually terminated.


                                     24

       We initially reviewed PACER data for a sample of 78 of the 234
terminated cases and found that 10 cases were terminated in a fiscal year
prior to FY 2009. For the 10 cases, we found that the number of days that
elapsed between the date the cases were terminated and the date the
terminations were entered into LIONS ranged from 21 to 513 days and
averaged 306 days. The median was 378 days for the 10 cases.

      Based on these results, we used data provided by EOUSA to expand
our review to all 234 reported cases and found that 30 of the 234 cases
were terminated in a fiscal year prior to FY 2009.32 For the 30 cases, data
entry delays ranged from 10 to 650 days and averaged 259 days with a
median of 270 days.

       In addition, as discussed in the section below for terminated cases in
FY 2010, we also found 25 cases that were reported in FY 2010 that were
terminated in FY 2009 and should have been reported in FY 2009. The net
effect is that EOUSA reported 5 (30 minus 25) cases as terminated in
FY 2009 that should not have been reported. Consequently, EOUSA
ultimately overstated by 2 percent the number of cases terminated in
FY 2009, which we consider to be an insignificant amount of deviation, even
though we found a total of 55 cases relating to this FY 2009 statistic that
had been miscounted.

FY 2010 U.S. Attorneys’ Annual Statistical Report

      In the FY 2010 U.S. Attorneys’ Annual Statistical Report, EOUSA
reported that 220 criminal cases were terminated in the program category of
Terrorism/National Security Critical Infrastructure during FY 2010.

      EOUSA staff provided a listing of the 220 terminated criminal cases.
We reviewed PACER data for a sample of 74 of the 220 terminated cases and
found that 14 cases were not terminated in FY 2010. The details of these
cases are as follows:

      •	 For 13 cases, the termination dates were in FY 2009 but the USAOs
         did not enter the termination dates into LIONS until FY 2010, and
         thus the cases were reported in FY 2010 based on the system
         disposition date. For these cases, we found that the data entry
         delays between the termination dates in PACER and entry into


      32
         We did not attempt to confirm the actual case termination dates provided by
EOUSA to the case termination dates in PACER.



                                           25

            LIONS by the USAOs ranged from 39 to 504 days and averaged 201
            days with a median of 137 days.

       •	 For one case, on October 3, 2011, the USAO entered into LIONS
          that one defendant pled guilty on September 15, 2011. An EOUSA
          official confirmed that the case should not have been reported in
          FY 2010 based on the fact that this defendant pled guilty in
          FY 2011. 33

      Based on these results, we used data provided by EOUSA to expand
our review to all 220 reported cases and found that 25 of the 220 cases
were terminated in FY 2009 and should not have been counted in FY 2010. 34
For these 25 cases, the data entry delays ranged from 1 to 504 days and
averaged 191 days with a median of 170 days.

      In summary, we found that EOUSA overstated its number of
terminated cases in FY 2010 by 13 percent. We consider this amount of
deviation to be significant.

5. Number of defendants in U.S. District Court – all occurrences – in
   criminal cases filed in program category Terrorism/National
   Security Critical Infrastructure

      In the FY 2010 U.S. Attorneys’ Annual Statistical Report, EOUSA
reported 439 defendants in criminal cases filed, based on all occurrences, in
the program category of Terrorism/National Security Critical Infrastructure
during FY 2010.

      EOUSA staff provided a listing of the 439 defendants in the cases filed
during FY 2010. According to EOUSA’s NLIONS business rules, EOUSA
reports all criminal defendants with a newly associated court record in the
reporting fiscal year with a program category code of Terrorism/National
Security Critical Infrastructure. EOUSA’s NLIONS business rules did not
define “all occurrences,” but an EOUSA official explained to us that “all
occurrences” includes all levels of program category codes.


       33
          In addition, we note that this case should not have been reported in FY 2010 even
using the problematic methodology discussed above of using the system disposition date as
a proxy for the termination date, as the guilty plea was not entered into LIONS until
FY 2012.

       34
         We did not attempt to confirm the actual case termination dates provided by
EOUSA to the case termination dates in PACER.




                                            26

       We reviewed PACER data for a sample of 147 of the 439 defendants
and found that 7 of the defendants were associated with cases not filed in
FY 2010. For one defendant, the case was filed in FY 2006 but USAO
personnel entered the filing into LIONS in August 2010. For six other
defendants, the cases were filed in FY 2009 but USAO personnel entered the
filings into LIONS during FY 2010. Data entry delays for these 7 cases
ranged from 14 to 1,573 days and averaged 447 days with a median of 352
days. In addition to the untimely entries, we found two other cases that
were improperly coded as terrorism-related cases. In one case, the
defendant was charged with conspiracy and intent to distribute over 50
kilograms of marijuana and was involved in the importation and delivery of
approximately 200 pounds of marijuana. According to an USAO official, this
case should have been coded as an Organized Crime Drug Enforcement Task
Force case instead of an Export Enforcement Terrorism-Related case. In the
other case, the defendant was convicted of possession with intent to
distribute 500 grams or more of a mixture and substance containing a
detectable amount of cocaine. This case was reported as an International
Terrorism Incident Which Impacts U.S. case, but an USAO official told us this
case was an Organized Crime Drug Enforcement Task Force case.

       We therefore found that, for the defendants we tested, EOUSA
overstated by 7 percent the actual number of defendants in criminal cases
filed in FY 2010. We consider this amount of deviation to be insignificant.

6.	 Number of defendants in U.S. District Court – all occurrences – in
    criminal cases terminated in program category Terrorism/
    National Security Critical Infrastructure

      In the FY 2010 U.S. Attorneys’ Annual Statistical Report, EOUSA
reported 406 defendants in criminal cases that were terminated, based on all
occurrences, in the program category of Terrorism/National Security Critical
Infrastructure during FY 2010.

      EOUSA staff provided a listing of the 406 defendants in criminal cases
that were terminated during FY 2010. According to EOUSA’s NLIONS
business rules, EOUSA reports the number of defendants in terminated
criminal cases in program category Terrorism/National Security Critical
Infrastructure by counting the number of defendants in criminal cases for
which no charged defendants remain pending at the end of the fiscal year
reporting period. EOUSA’s NLIONS business rules did not define “all
occurrences,” but an EOUSA official explained to us that “all occurrences”
includes all levels of program category codes.




                                     27

       We initially reviewed the PACER data for a sample of 136 of the 406
defendants and found that 25 of the defendants were not associated with
cases terminated in FY 2010. For 23 defendants, the cases were terminated
prior to FY 2010 but the USAO entered the termination into LIONS during
FY 2010. Data entry delays for these defendants ranged from 29 to 743
days and averaged 376 days with a median of 393 days. For the remaining
two cases, an USAO official told us that the case was still pending after
FY 2010 but was mistakenly recorded in LIONS as terminated in FY 2010.

      Based on these results, we used data provided by EOUSA to expand
our review to all 406 defendants and found that the cases for 55 of the 406
defendants actually terminated prior to FY 2010 and should not have been
counted for FY 2010. 35 For the 55 cases, data entry delays ranged from 1 to
706 days and averaged 241 days with a median of 210 days.

      We therefore found that EOUSA overstated by 55, or 16 percent, the
reported number of defendants in terminated cases based on all occurrences
during FY 2010. We consider this amount of deviation to be significant.

7. Number of defendants in U.S. District Court in criminal cases filed
   in program category Terrorism/National Security Critical
   Infrastructure36

FY 2009 U.S. Attorneys’ Annual Statistical Report and the U.S. Attorneys’
FY 2011 Performance Budget Congressional Submission

      In the FY 2009 U.S. Attorneys’ Annual Statistical Report and the U.S.
Attorneys’ FY 2011 Performance Budget Congressional Submission, EOUSA
reported 311 defendants in criminal cases filed in the program category
Terrorism/National Security Critical Infrastructure during FY 2009.

      EOUSA staff provided a listing of the 311 defendants in the cases filed
during FY 2009. According to the NLIONS business rules, EOUSA reports the
number of defendants in filed cases in program category Terrorism/National
Security Critical Infrastructure by counting all criminal defendants with a
newly associated court record in the reporting year and with a primary
program category code of Terrorism/National Security Critical Infrastructure.

      35
         We did not attempt to confirm the actual case termination dates provided by
EOUSA to the case termination dates in PACER.
      36
           According to an EOUSA official, the U.S. Attorneys’ FY 2011 and FY 2012
Performance Budget Congressional Submissions mistakenly indicated that this statistic was
for the program category Terrorism/Terrorist-related instead of the current program
category Terrorism/National Security Critical Infrastructure.



                                           28

      We selected a sample of 104 of the 311 defendants for testing. One
defendant’s case was sealed and we excluded it from our testing. We
reviewed the PACER data and found that 6 of the remaining 103 defendants
were associated with cases not filed in FY 2009. Three defendants’ cases
were filed in FY 2008, 1 case was filed in FY 2001, and 2 cases were filed in
FY 2000. For each of these cases, USAO personnel entered case data into
LIONS during FY 2009. Data entry delays ranged from 323 to 3,391 days
and averaged 1,848 days with a median of 1,743 days. In addition to the
untimely entries, we found two other cases that were improperly coded as
terrorism or national security cases. In one case, the defendant was
convicted of being an illegal alien in possession of a firearm. This case was
reported as a Domestic Terrorism case but an USAO official told us that this
case should have been recoded as an Immigration case. In the other case,
the defendant was convicted of using an access device with intent to
defraud. This case was reported as a Terrorism/National Security Critical
Infrastructure case, but an USAO official told us that this case should have
been coded as a White Collar Crime/Fraud case. We therefore found that,
for the defendants we tested, EOUSA overstated by 8 percent the actual
number of defendants in criminal cases filed in FY 2009. We consider this
amount of deviation to be insignificant.

       In addition, as discussed in the section below for defendants in cases
filed during FY 2010, we also used a sampling methodology and found 6
defendants reported for cases filed in FY 2010 whose cases were in fact filed
in FY 2009. These six cases offset those discussed in the prior paragraph,
although we emphasize that we may have discovered other miscounted
cases had we expanded our reviews beyond our samples.

FY 2010 U.S. Attorneys’ Annual Statistical Report and the U.S. Attorneys’
FY 2012 Performance Budget Congressional Submission

      In the FY 2010 U.S. Attorneys’ Annual Statistical Report and the U.S.
Attorneys’ FY 2012 Performance Budget Congressional Submission, EOUSA
reported 385 defendants in criminal cases filed in the program category of
Terrorism/National Security Critical Infrastructure during FY 2010.

       EOUSA staff provided a listing of the 385 defendants in the cases filed
during FY 2010. We selected a sample of 129 of the 385 defendants. One
defendant’s case was sealed and we excluded it from our testing. We
reviewed the PACER data and found that 9 of the remaining 128 defendants
were associated with cases not filed in FY 2010. Six defendants’ cases were
filed in FY 2009, 2 cases were filed in FY 2006, and 1 case was filed in



                                      29

FY 2005. For each of these cases, USAO personnel entered data into LIONS
during FY 2010. Data entry delays ranged from 35 to 1,658 days and
averaged 676 days with a median of 519 days. In addition to the untimely
entries, we found one other case that was improperly coded as an Export
Enforcement Terrorism-Related case. In this case, the defendant was
charged with conspiracy and intent to distribute over 50 kilograms of
marijuana and was involved in the importation and delivery of approximately
200 pounds of marijuana. According to an USAO official, this case should
have been coded as an Organized Crime Drug Enforcement Task Force case
instead of an Export Enforcement Terrorism-Related case.

       We therefore found that, for the defendants we tested, EOUSA
overstated by 8 percent the actual number of defendants in criminal cases
filed in FY 2010. We consider this amount of deviation to be insignificant.

8. Number of defendants in U.S. District Court in criminal cases
   terminated in program category Terrorism/National Security
   Critical Infrastructure

FY 2009 U.S. Attorneys’ Annual Statistical Report

      In the FY 2009 U.S. Attorneys’ Annual Statistical Report, EOUSA
reported 367 defendants in criminal cases that were terminated in the
program category of Terrorism/National Security Critical Infrastructure in
FY 2009.

      EOUSA staff provided a listing of the 367 defendants in terminated
criminal cases in program category Terrorism/National Security Critical
Infrastructure. According to the NLIONS business rules, EOUSA reports the
number of defendants in terminated criminal cases in program category
Terrorism/National Security Critical Infrastructure by counting the number of
defendants in criminal cases for which no charged defendants are still
pending at the end of the fiscal year reporting period and with a primary
program category code of Terrorism/National Security Critical Infrastructure.

      We initially reviewed PACER data for a sample of 123 of the 367
defendants and found that the cases for 9 of the defendants were
terminated prior to FY 2009, but that USAO staff entered the case data into
LIONS during FY 2009. Data entry delays ranged from 126 to 2,060 days
and averaged 905 days with a median of 415 days.

      Based on these results, we used data provided by EOUSA to expand
our review to all 367 defendants reported and found that cases for 53 of the



                                     30

367 defendants were terminated prior to FY 2009. 37 Data entry delays for
the 53 cases ranged from 10 to 650 days and averaged 225 days with a
median of 226 days. For the defendant in 1 of the 53 cases, we also found
that the case was improperly coded as a Terrorist Financing case. In this
case, the defendant was convicted of redemption of illegally received food
stamps and an USAO official told us the case was miscoded.

       In addition, as discussed in the section below for defendants in cases
terminated in FY 2010, we also found 30 defendants were reported for cases
terminated in FY 2010 whose cases were in fact terminated in FY 2009.
These cases offset against those discussed in the prior paragraph, EOUSA
reported 23 (53 minus 30) defendants in cases terminated in FY 2009 that
should not have been reported. As a consequence of these errors, EOUSA
ultimately overstated by 7 percent the actual number of defendants in cases
terminated in FY 2009, which we consider to be an insignificant amount of
deviation, even though we found a total of 83 cases relating to this FY 2009
statistic that had been miscounted.

FY 2010 U.S. Attorneys’ Annual Statistical Report

      In the FY 2010 U.S. Attorneys’ Annual Statistical Report, EOUSA
reported 347 defendants in criminal cases that were terminated in the
program category of Terrorism/National Security Critical Infrastructure in
FY 2010.

        EOUSA staff provided a listing of the 347 defendants in terminated
criminal cases in program category Terrorism/National Security Critical
Infrastructure during FY 2010. We reviewed PACER data for a sample of 116
of the 347 defendants and found that the cases for 22 defendants should not
have been reported for FY 2010. The cases for 20 defendants were
terminated prior to FY 2010; 10 of these defendants were also reported as
terminated in FY 2009. 38 The cases for the remaining two defendants were
still pending at the end of FY 2010; one of these two cases was also
inappropriately reported as terminated in FY 2009.



       37
         We did not attempt to confirm the actual case termination dates provided by
EOUSA to the case termination dates in PACER.
       38
          According to a USAO official at a district that accounted for 5 of the 10 defendants
counted in both FY 2009 and FY 2010, this double-reporting occurred because a new
paralegal mistakenly reopened previously closed cases and then closed the cases again in
the subsequent fiscal year.




                                             31

      Based on these results, we obtained termination data from EOUSA for
all 347 defendants reported as terminated during FY 2010. 39 Using the data
provided by EOUSA, we found that the cases for a total of 45 defendants
were terminated in FY 2009 and should not have been reported for FY 2010.
The delay in entering the terminations in LIONS for these 45 defendants
ranged from 1 to 561 days and averaged 218 days with a median of 183
days.

      We therefore concluded that EOUSA overstated by 45, or 15 percent,
the reported number of defendants in terminated cases in program category
Terrorism/National Security Critical Infrastructure during FY 2010. We
consider this amount of deviation to be significant.

       Of the 45 defendants, the cases for 15 defendants were reported as
terminated both in FY 2009 and FY 2010. 40 EOUSA personnel told us that
the defendants reported in both FY 2009 and FY 2010 were reported twice as
a result of the method used by USAO personnel when reopening the cases in
LIONS to post updates to a case. An EOUSA official said that LIONS allows
USAO staff to enter or revise system data, but that when cases are re­
opened or data is changed, specific procedures for reopening the cases must
be followed to prevent the double counting of case data. The official said
that EOUSA is working to develop a new case management system that will
address the issue of re-opened cases to avoid double counting in statistical
reports. The official also told us that EOUSA plans to draft new
requirements and business rules this fiscal year that will address the issue of
reopened cases to avoid double counting in statistical reports.

9. Number of dispositions in U.S. District Court – all occurrences –
   guilty in program category Terrorism/National Security Critical
   Infrastructure

      In the FY 2010 U.S. Attorneys’ Annual Statistical Report, EOUSA
reported 341 dispositions in U.S. District Court as guilty in all occurrences of
program category of Terrorism/National Security Critical Infrastructure
during FY 2010.

      EOUSA staff provided a listing of the 341 guilty dispositions in all
occurrences of program category Terrorism/National Security Critical

       39
         We did not attempt to confirm the actual case termination dates provided by
EOUSA to the case termination dates in PACER.
       40
           The cases for the remaining 30 defendants were reported as terminated in
FY 2010 only. These 30 defendants are also discussed in the FY 2009 section for this
statistic.



                                            32

Infrastructure during FY 2010. According to the NLIONS business rules,
EOUSA reports the number of dispositions guilty in program category
Terrorism/National Security Critical Infrastructure by counting the number of
defendants who pled guilty and the number of defendants found guilty by
trial verdict during the reporting year. EOUSA’s NLIONS business rules did
not define “all occurrences,” but an EOUSA official explained to us that “all
occurrences” includes all levels of program category codes.

       We reviewed PACER data for a sample of 114 of the 341 defendants
and found that 21 defendants were adjudged guilty in a fiscal year prior to
FY 2010, but that USAO staff entered the case data into LIONS during
FY 2010. An EOUSA official confirmed that the defendants were reported for
FY 2010 because the USAOs entered the defendants’ disposition in LIONS
during FY 2010. Data entry delays ranged from 63 to 1,803 days and
averaged 483 days with a median of 314 days. In addition, we found that
for four other defendants, the cases were improperly coded as terrorism or
national security cases. In one case, the defendant was convicted of
immigration and passport fraud and reported as a Terrorism/National
Security Critical Infrastructure case, but an USAO official told us the case
was miscoded. In the second case, the defendant was convicted of
conspiracy to distribute 1,000 kilograms or more of marijuana and reported
as a Terrorism/National Security Critical Infrastructure case, but an USAO
official told us the case was not a terrorism case. In the third case, the
defendant was convicted of conspiracy to introduce into interstate commerce
counterfeit and misbranded pharmaceutical products. The case was
reported as an Export Enforcement Terrorism-Related case, but an USAO
official told us the case was miscoded and has been recoded to an Export
Enforcement Non-Terrorism case. In the fourth case, the defendant’s case
was related to transactional money laundering but was misreported as an
International Terrorism Incidents Which Impact U.S. case. For this latter
case, this defendant was 1 of the 21 defendants whose guilty adjudications
were not entered timely as discussed above.

      We therefore concluded that, for the defendants we tested, EOUSA
overstated by 24, or 27 percent, the number of tested dispositions reported
as guilty based on all occurrences in FY 2010. We consider this amount of
deviation to be significant.




                                     33

10. Number of dispositions in U.S. District Court guilty in program
    category Terrorism/National Security Critical Infrastructure 41

FY 2009 U.S. Attorneys’ Annual Statistical Report and the U.S. Attorneys’
FY 2011 Performance Budget Congressional Submission

      In the FY 2009 U.S. Attorneys’ Annual Statistical Report and the
U.S. Attorneys’ FY 2011 Performance Budget Congressional Submission,
EOUSA reported 307 dispositions in U.S. District Court guilty in program
category Terrorism/National Security Critical Infrastructure during FY 2009.

      EOUSA staff provided a listing of the 307 defendants adjudged guilty in
program category Terrorism/National Security Critical Infrastructure.
According to the NLIONS business rules, EOUSA reports the number of
dispositions guilty in program category Terrorism/National Security Critical
Infrastructure by counting the number of defendants who pled guilty and the
number of defendants found guilty by trial verdict during the reporting year.

      We reviewed PACER data for a sample of 103 of the 307 defendants
and found that 11 of the defendants were reported as guilty for FY 2009 but
should not have been. Nine of the 11 defendants were found guilty in
FY 2008, but according to an EOUSA official, USAO personnel did not enter
the guilty dispositions into LIONS until FY 2009. Data entry delays ranged
from 105 to 453 days and averaged 312 days with a median of 335 days.
For the remaining two defendants, the charges against the defendants were
dismissed. An EOUSA official told us that the guilty report for these
defendants resulted from a docketing error at the USAO offices. In addition
to the untimely entries, we found one other case that was improperly coded
as a Terrorism/National Security Critical Infrastructure case. In this case,
the defendant was convicted of conspiracy to distribute and possession with
intent to distribute 1,000 kilograms or more of marijuana, and with
conspiracy to commit money laundering. An USAO official told us the case
was miscoded and should have been coded as an Organized Crime Drug
Enforcement Task Force narcotics case. We consider this amount of
deviation (12 of 103 defendants tested, or 12 percent) to be significant.

     In addition, as discussed in the section below for guilty dispositions in
FY 2010, we also used a sampling methodology and found 17 defendants
adjudged guilty in FY 2009 who were reported in FY 2010. Three of these 17
defendants were also reported in FY 2009, but the other 14 defendants were
      41
           According to an EOUSA official, the U.S. Attorneys’ FY 2011 and FY 2012
Performance Budget Congressional Submissions mistakenly indicated that this statistic was
for the program category Terrorism/Terrorist-related instead of the current program
category Terrorism/National Security Critical Infrastructure.



                                           34

reported as adjudged guilty only in FY 2010. These 14 defendants should
have been reported in FY 2009 instead. These defendants offset the 12
miscounted defendants we identified in the prior paragraph, although we
emphasize that we may have discovered other miscounted cases had we
expanded our reviews beyond our samples.

FY 2010 U.S. Attorneys’ Annual Statistical Report and the U.S. Attorneys’
FY 2012 Performance Budget Congressional Submission

      In the FY 2010 U.S. Attorneys’ Annual Statistical Report and the
U.S. Attorneys’ FY 2012 Performance Budget Congressional Submission,
EOUSA reported 292 dispositions in U.S. District Court guilty in program
category Terrorism/National Security Critical Infrastructure during FY 2010.

      EOUSA staff provided a listing of the 292 defendants adjudged guilty in
program category Terrorism/National Security Critical Infrastructure. We
reviewed PACER data for a sample of 98 of the 292 defendants and found
that 20 of the 98 defendants were adjudged guilty prior to FY 2010 and
should not have been counted for FY 2010. Details of these 20 cases are as
follows:

     •	 Fourteen defendants were adjudged guilty in FY 2009 but not
        reported as guilty until FY 2010. An EOUSA official told us that the
        USAOs did not enter the dispositions for these defendants into
        LIONS until FY 2010.

     •	 Three defendants reported guilty in FY 2010 had previously been
        reported guilty in FY 2009. An EOUSA official told us that the
        double reporting occurred because of the method used by USAO
        personnel when reopening cases in LIONS, which is discussed
        above in the discussion for statistic 8 for FY 2010. We noted two
        additional defendants that were reported incorrectly for this same
        reason. The first defendant received a guilty verdict in FY 2008,
        was entered into LIONS and inappropriately reported in FY 2009,
        and was reported guilty again in FY 2010. The second defendant
        received a guilty verdict in FY 2006 but was reported in FY 2010.

     •	 One defendant pled guilty in FY 2005 but was reported in FY 2010.
        An EOUSA official told us that the defendant was not counted as
        guilty until FY 2010 because the defendant’s sentencing was
        deferred until May 2010. The official cited guidance taken from the
        LIONS Manual which states, “If there is a Disposition of GT (Guilty)
        or NC (Nolo), a Sentence Date is required before the roll-up will be
        performed to close the Court/Participant record.” Based on this


                                     35

           guidance, EOUSA does not count the guilty disposition until the
           case is closed. We question the propriety of reporting the guilty
           disposition in this manner, as the guilty plea occurred in FY 2005
           irrespective of the fact that sentencing was deferred, and thus
           reporting the defendant in FY 2010 creates the false impression
           that the disposition occurred in FY 2010. Moreover, we note that
           EOUSA has reported a separate statistic for defendants who were
           sentenced to prison in FY 2010 (see statistic 11, below). We
           believe that statistic more appropriately captures the fact that this
           defendant was sentenced in FY 2010.

      Data entry delays for the 20 erroneous guilty dispositions ranged from
39 to 1,803 days and averaged 460 days with a median of 352 days.

      For the defendants we tested, EOUSA overstated by 20, or 26 percent,
the number of dispositions guilty in FY 2010. We consider this amount of
deviation to be significant.

11.	 Number of Terrorism/National Security Critical Infrastructure
     defendants sentenced to prison 42

U.S. Attorneys’ FY 2011 Performance Budget Congressional Submission

      In the U.S. Attorneys’ FY 2011 Performance Budget Congressional
Submission, EOUSA reported that 171 defendants were sentenced to prison
in program category Terrorism/National Security Critical Infrastructure
during FY 2009.

      EOUSA staff provided a listing of the 171 defendants sentenced to
prison in program category Terrorism/National Security Critical
Infrastructure. Because the NLIONS business rules did not provide a
methodology for reporting the number of defendants sentenced to prison,
we asked an EOUSA official how this statistic is determined. The official told
us that this statistic is calculated by counting the defendants who were
found guilty and who had a prison sentence length greater than zero
months.

     We reviewed PACER data for a sample of 57 of the 171 defendants and
found that 2 of the 57 defendants reported as sentenced to prison during

      42
           According to an EOUSA official, the U.S. Attorneys’ FY 2011 and FY 2012
Performance Budget Congressional Submissions mistakenly indicated that this statistic was
for the program category Terrorism/Terrorist-related instead of the current program
category Terrorism/National Security Critical Infrastructure.



                                           36

FY 2009 were actually sentenced to prison during FY 2008 and should not
have been counted for FY 2009. An EOUSA official told us that the two
defendants were reported in FY 2009 because USAO personnel entered the
sentencing dispositions into LIONS during FY 2009. The data entry delays
were 349 days and 413 days, respectively. For the defendants we tested,
we consider this amount of deviation (2 of 57 defendants tested, or 4
percent) to be insignificant.

      In addition, as discussed in the section below on sentencing
dispositions for FY 2010, we also used a sampling methodology and found
that eight defendants reported as sentenced in FY 2010 were actually
sentenced in FY 2009. These defendants offset the 2 miscounted defendants
we identified in the prior paragraph, although we emphasize that we may
have discovered other miscounted cases had we expanded our reviews
beyond our samples.

U.S. Attorneys’ FY 2012 Performance Budget Congressional Submission

      In the U.S. Attorneys’ FY 2012 Performance Budget Congressional
Submission, EOUSA reported that 168 defendants were sentenced to prison
in program category Terrorism/National Security Critical Infrastructure
during FY 2010.

      EOUSA staff provided a listing of the 168 defendants sentenced to
prison in program category Terrorism/National Security Critical
Infrastructure. We reviewed PACER data for a sample of 56 of the 168
defendants and found 9 defendants were sentenced prior to FY 2010. One
defendant was sentenced in FY 2007 and eight defendants were sentenced
in FY 2009. An EOUSA official told us that the USAOs did not enter the
sentencing dispositions into LIONS for each defendant until FY 2010. Data
entry delays for the 9 defendants ranged from 106 to 1,387 days and
averaged 406 days with a median of 239 days.

      We therefore concluded that, for the defendants tested, EOUSA
overstated by 9, or 19 percent, the number of defendants sentenced to
prison in FY 2010. We consider this deviation to be significant.

OIG Conclusions

       We found that EOUSA had not significantly improved its reporting of
terrorism-related statistics. EOUSA revised its procedures for gathering,
verifying, classifying, and reporting its statistics based on the
recommendations from our 2007 audit, but implementation of those
procedures was not effective to ensure the accuracy of the statistics we


                                     37

tested. During our 2007 audit, all 11 tested statistics reported by EOUSA
were reported inaccurately, and 9 of those 11 statistics were either
overstated or understated by significant margins. In this follow-up audit,
again all 11 EOUSA statistics we tested were reported inaccurately, and 8 of
the 11 statistics were either overstated or understated by significant
margins. These inaccuracies are important because Department
management and Congress need accurate terrorism-related statistics to
make informed budgetary and operational decisions.

Recommendations

We recommend that EOUSA:

1. Establish a system to annually remind AUSAs to promptly re-code any
   case or matter in LIONS that began as a terrorism or national security
   investigation but ultimately becomes a different type of case that requires
   a change in the original coding.

2. Update reporting practices to clearly define the methodology used to
   collect the data for each statistic, including an explanation for those
   statistics identified as “all occurrences.”

3. Clarify reporting practices on the number of dispositions in U.S. District
   Court guilty in program category Terrorism/National Security Critical
   Infrastructure by footnoting that the dispositions could have resulted from
   guilty pleas or guilty verdicts that were obtained in a prior year.

4. Establish a specific timeframe for USAOs to enter case data into LIONS
   prior to the end of each fiscal year.

5. Monitor the USAOs compliance with the LIONS data-entry timeframe
   established and require corrective actions by the USAO when non­
   compliance is identified.

6. Ensure the statistical reporting log is maintained and captures requests
   for all terrorism and national security program category code statistics
   and contains the responsive data to support the statistics reported.




                                      38

We recommend that the USAOs:

7. Establish and implement procedures to ensure that case data needed to
   produce statistical reports are entered into LIONS within the timeframes
   established by EOUSA.

8. Ensure that all staff responsible for entering data into LIONS are
   instructed on the proper procedures for updating data in LIONS for closed
   cases to ensure that cases are not inappropriately reopened and closed in
   a manner that results in inaccurate case statistics.




                                     39

              STATEMENT ON INTERNAL CONTROLS

      As required by the Government Auditing Standards, we tested, as
appropriate, internal controls significant within the context of our audit
objectives. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations
of laws and regulations. Our evaluation of EOUSA’s internal controls were
not made for the purpose of providing assurance on its internal control
structure as a whole. EOUSA management is responsible for the
establishment and maintenance of internal controls.

      Through our audit testing, we did not identify deficiencies in the
EOUSA’s internal controls that were significant within the context of the
audit objectives and that, based upon the audit work performed, we believe
would adversely affect EOUSA’s ability to effectively and efficiently operate,
to correctly state financial information, and to ensure compliance with laws
and regulations.

       However, we did identify weaknesses regarding the EOUSA’s controls
over the reporting of terrorism-related statistics that have resulted in
significant inaccuracies when reporting some of these statistics. EOUSA
officials acknowledged these discrepancies and expressed interest in
strengthening their processes.

      Because we are not expressing an opinion on the EOUSA’s internal
control structure as a whole, this statement is intended solely for the
information and use of the EOUSA. This restriction is not intended to limit
the distribution of this report, which is a matter of public record.




                                      40

               STATEMENT ON COMPLIANCE WITH

                   LAWS AND REGULATIONS


      As required by the Government Auditing Standards, we tested
EOUSA’s processes, controls, and records to obtain reasonable assurance
that the Department complied with laws and regulations that, if not complied
with, could have a material effect on EOUSA’s ability to report terrorism-
related statistics accurately. Compliance with laws and regulations
applicable to EOUSA’s reporting of such statistics is the responsibility of
EOUSA management. An audit includes examining, on a test basis, evidence
about compliance with laws and regulations. The specific laws and
regulations we reviewed included the relevant portions of the Office of
Management and Budget Circular A-123, Management’s Responsibility for
Internal Control.

      Except for instances of non-compliance identified in the Finding and
Recommendations section of this report, EOUSA complied with the laws and
regulations cited above. With respect to those activities not tested, nothing
came to our attention that caused us to believe that EOUSA was not in
compliance with the laws and regulations cited above.




                                     41

                                                            APPENDIX I

      AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY

       Our objectives were to determine if: (1) EOUSA took appropriate
actions to implement the recommendations from our 2007 audit; and (2) the
corrective actions implemented improved EOUSA’s ability to gather, track,
classify, verify, and report accurate terrorism-related statistics. We
conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives. Our
audit concentrated on, but was not limited to, the period subsequent to the
issuance of our prior audit in February 2007 through January 17, 2013.

     We performed the following work at EOUSA located in
Washington, D.C.:

     1. 	We identified 39 unique terrorism-related statistics reported by
         EOUSA 72 times in budget submissions, annual statistical reports,
         or other documents for FY 2009 through FY 2012 by:

           •	 interviewing key EOUSA personnel regarding internal and
              external documents in which terrorism-related statistics are
              reported; and

           •	 reviewing the documents identified through interviews and
              searches for terrorism-related statistics.

         The 39 statistics and details about where each was reported is
         presented in the following table.




                                    42

                                       Number                  Where Statistic
       Statistic Description          Reported                  was Reported
1.   Number of criminal appeals       45 FY 2009    U.S. Attorneys’ Annual Statistical
     filed in program category                      Report FY 2009
     Terrorism/National Security
     Critical Infrastructure          43 FY 2010    U.S. Attorneys’ Annual Statistical
                                                    Report FY 2010
2.   Number of criminal cases in      258 FY 2010   U.S. Attorneys’ Annual Statistical
     U.S. District Court – all                      Report FY 2010
     occurrences – terminated in
     program category
     Terrorism/National Security
     Critical Infrastructure
3.   Number of criminal cases in      620 FY 2009   U.S. Attorneys’ Annual Statistical
     U.S. District Court pending in                 Report FY 2009
     program category
     Terrorism/National Security
     Critical Infrastructure
4.   Number of criminal cases in      234 FY 2009   U.S. Attorneys’ Annual Statistical
     U.S. District Court that were                  Report FY 2009
     terminated in program
     category Terrorism/National      220 FY 2010   U.S. Attorneys’ Annual Statistical
     Security Critical                              Report FY 2010
     Infrastructure
5.   Number of defendants in U.S.     439 FY 2010   U.S. Attorneys’ Annual Statistical
     District court – all                           Report FY 2010
     occurrences – in criminal
     cases filed in program
     category Terrorism/National
     Security Critical
     Infrastructure
6.   Number of defendants in U.S.     406 FY 2010   U.S. Attorneys’ Annual Statistical
     District Court – all                           Report FY 2010
     occurrences – in criminal
     cases terminated in program
     category Terrorism/National
     Security Critical
     Infrastructure
7.   Number of defendants in U.S.     311 FY 2009   Performance Budget Congressional
     District Court in criminal                     Submission FY 2011
     cases filed in program
     category Terrorism/National                    U.S. Attorneys’ Annual Statistical
     Security Critical                              Report FY 2009
     Infrastructure
                                      385 FY 2010   Performance Budget Congressional
                                                    Submission FY 2012

                                                    U.S. Attorneys’ Annual Statistical
                                                    Report FY 2010




                                            43

                                     Number                  Where Statistic
     Statistic Description           Reported                 was Reported
8. Number of defendants in U.S.     367 FY 2009   U.S. Attorneys’ Annual Statistical
    District Court in criminal                    Report FY 2009
    cases terminated in program
    category Terrorism/National     347 FY 2010   U.S. Attorneys’ Annual Statistical
    Security Critical                             Report FY 2010
    Infrastructure
9. Number of dispositions in        341 FY 2010   U.S. Attorneys’ Annual Statistical
    U.S. District court – all                     Report FY 2010
    occurrences – guilty in
    program category
    Terrorism/National Security
    Critical Infrastructure
10. Number of dispositions in       307 FY 2009   Performance Budget Congressional
    U.S. District Court guilty in                 Submission FY 2011
    program category
    Terrorism/National Security                   U.S. Attorneys’ Annual Statistical
    Critical Infrastructure                       Report FY 2009

                                    292 FY 2010   Performance Budget Congressional
                                                  Submission FY 2012

                                                  U.S. Attorneys’ Annual Statistical
                                                  Report FY 2010
11. Number of                       171 FY 2009   Performance Budget Congressional
    Terrorism/National Security                   Submission FY 2011
    Critical Infrastructure
    defendants sentenced to         168 FY 2010   Performance Budget Congressional
    prison                                        Submission FY 2012
12. Number of criminal cases in     266 FY 2010   U.S. Attorneys’ Annual Statistical
    U.S. District Court – all                     Report FY 2010
    occurrences – filed in
    program category
    Terrorism/National Security
    Critical Infrastructure
13. Number of criminal cases in     193 FY 2009   U.S. Attorneys’ Annual Statistical
    U.S. District Court filed in                  Report FY 2009
    program category
    Terrorism/National Security     236 FY 2010   U.S. Attorneys’ Annual Statistical
    Critical Infrastructure                       Report FY 2010
14. Number of dispositions in       45 FY 2010    U.S. Attorneys’ Annual Statistical
    U.S. District court – all                     Report FY 2010
    occurrences – dismissed in
    program category
    Terrorism/National Security
    Critical Infrastructure




                                          44

                                          Number                  Where Statistic
           Statistic Description          Reported                 was Reported
15.   Number of dispositions in           5 FY 2010    U.S. Attorneys’ Annual Statistical
      U.S. District Court – all                        Report FY 2010
      occurrences – not guilty in
      program category
      Terrorism/National Security
      Critical Infrastructure
16.   Number of dispositions in          13 FY 2010    U.S. Attorneys’ Annual Statistical
      U.S. District Court – all                        Report FY 2010
      occurrences – other in
      program category
      Terrorism/National Security
      Critical Infrastructure
17.   Number of dispositions in           2 FY 2010    U.S. Attorneys’ Annual Statistical
      U.S. District Court – all                        Report FY 2010
      occurrences – Rule 20 in
      program category
      Terrorism/National Security
      Critical Infrastructure
18.   Number of dispositions in          38 FY 2009    U.S. Attorneys’ Annual Statistical
      U.S. District Court dismissed                    Report FY 2009
      in program category
      Terrorism/National Security        44 FY 2010    U.S. Attorneys’ Annual Statistical
      Critical Infrastructure                          Report FY 2010
19.   Number of dispositions in           6 FY 2009    U.S. Attorneys’ Annual Statistical
      U.S. District Court not guilty                   Report FY 2009
      in program category
      Terrorism/National Security         4 FY 2010    U.S. Attorneys’ Annual Statistical
      Critical Infrastructure                          Report FY 2010
20.   Number of dispositions in          15 FY 2009    U.S. Attorneys’ Annual Statistical
      U.S. District Court other in                     Report FY 2009
      program category
      Terrorism/National Security         5 FY 2010    U.S. Attorneys’ Annual Statistical
      Critical Infrastructure                          Report FY 2010
21.   Number of dispositions in           1 FY 2009    U.S. Attorneys’ Annual Statistical
      U.S. District Court Rule 20 in                   Report FY 2009
      program category
      Terrorism/National Security         2 FY 2010    U.S. Attorneys’ Annual Statistical
      Critical Infrastructure                          Report FY 2010
22.   Total number of                    832 FY 2009   U.S. Attorneys’ Annual Statistical
      Terrorism/National Security                      Report FY 2009
      Critical Infrastructure criminal
      matters declined                   969 FY 2010   U.S. Attorneys’ Annual Statistical
                                                       Report FY 2010
23. Number of Terrorism/National         112 FY 2009   U.S. Attorneys’ Annual Statistical
    Security Critical                                  Report FY 2009
    Infrastructure criminal
    matters declined by reason of        126 FY 2010   U.S. Attorneys’ Annual Statistical
    agency request                                     Report FY 2010




                                               45

                                         Number                  Where Statistic
      Statistic Description              Reported                 was Reported
24.   Number of Terrorism/National       8 FY 2009    U.S. Attorneys’ Annual Statistical
      Security Critical                               Report FY 2009
      Infrastructure criminal
      matters declined by reason of      4 FY 2010    U.S. Attorneys’ Annual Statistical
      DOJ/Court Policy                                Report FY 2010
25.   Number of Terrorism/National      15 FY 2009    U.S. Attorneys’ Annual Statistical
      Security Critical                               Report FY 2009
      Infrastructure criminal
      matters declined by reason of     102 FY 2010   U.S. Attorneys’ Annual Statistical
      jurisdiction, venue, or witness                 Report FY 2010
      problems
26.   Number of Terrorism/National       5 FY 2009    U.S. Attorneys’ Annual Statistical
      Security Critical                               Report FY 2009
      Infrastructure criminal
      matters declined by reason of      5 FY 2010    U.S. Attorneys’ Annual Statistical
      juvenile suspect                                Report FY 2010
27.   Number of Terrorism/National      209 FY 2009   U.S. Attorneys’ Annual Statistical
      Security Critical                               Report FY 2009
      Infrastructure criminal
      matters declined by reason of     254 FY 2010   U.S. Attorneys’ Annual Statistical
      lack of criminal intent                         Report FY 2010
28.   Number of Terrorism/National      20 FY 2009    U.S. Attorneys’ Annual Statistical
      Security Critical                               Report FY 2009
      Infrastructure criminal
      matters declined by reason of     30 FY 2010    U.S. Attorneys’ Annual Statistical
      lack of resources                               Report FY 2010
29.   Number of Terrorism/National      35 FY 2009    U.S. Attorneys’ Annual Statistical
      Security Critical                               Report FY 2009
      Infrastructure criminal
      matters declined by reason of     35 FY 2010    U.S. Attorneys’ Annual Statistical
      minimal federal interest                        Report FY 2010
30.   Number of Terrorism/National      70 FY 2009    U.S. Attorneys’ Annual Statistical
      Security Critical                               Report FY 2009
      Infrastructure criminal
      matters declined by reason of     84 FY 2010    U.S. Attorneys’ Annual Statistical
      no federal offense committed                    Report FY 2010
31.   Number of Terrorism/National      37 FY 2009    U.S. Attorneys’ Annual Statistical
      Security Critical                               Report FY 2009
      Infrastructure criminal
      matters declined by reason of     29 FY 2010    U.S. Attorneys’ Annual Statistical
      no known suspect                                Report FY 2010




                                              46

                                        Number                    Where Statistic
     Statistic Description             Reported                    was Reported
 32. Number of Terrorism/National      24 FY 2009      U.S. Attorneys’ Annual Statistical
     Security Critical                                 Report FY 2009
     Infrastructure criminal
     matters declined by reason of      5 FY 2010      U.S. Attorneys’ Annual Statistical
     office policy                                     Report FY 2010
 33. Number of Terrorism/National      19 FY 2009      U.S. Attorneys’ Annual Statistical
     Security Critical                                 Report FY 2009
     Infrastructure criminal
     matters declined by reason of     22 FY 2010      U.S. Attorneys’ Annual Statistical
     other disciplinary alternatives                   Report FY 2010
 34. Number of Terrorism/National      12 FY 2009      U.S. Attorneys’ Annual Statistical
     Security Critical                                 Report FY 2009
     Infrastructure criminal
     matters declined by reason of     10 FY 2010      U.S. Attorneys’ Annual Statistical
     statute of limitations or                         Report FY 2010
     staleness problems
 35. Number of Terrorism/National       0 FY 2009      U.S. Attorneys’ Annual Statistical
     Security Critical                                 Report FY 2009
     Infrastructure criminal
     matters declined by reason of      8 FY 2010      U.S. Attorneys’ Annual Statistical
     suspect is a fugitive, serving                    Report FY 2010
     sentence, deceased or
     deported
 36. Number of Terrorism/National       3 FY 2009      U.S. Attorneys’ Annual Statistical
     Security Critical                                 Report FY 2009
     Infrastructure criminal
     matters declined by reason of      3 FY 2010      U.S. Attorneys’ Annual Statistical
     suspect cooperating or                            Report FY 2010
     restitution being made
 37. Number of Terrorism/National      61 FY 2009      U.S. Attorneys’ Annual Statistical
     Security Critical                                 Report FY 2009
     Infrastructure criminal
     matters declined by reason of     52 FY 2010      U.S. Attorneys’ Annual Statistical
     suspect prosecuted by other                       Report FY 2010
     authority or on other charge
 38. Number of Terrorism/National      190 FY 2009     U.S. Attorneys’ Annual Statistical
     Security Critical                                 Report FY 2009
     Infrastructure criminal
     matters declined by reason of     193 FY 2010     U.S. Attorneys’ Annual Statistical
     weak or insufficient evidence                     Report FY 2010
 39. Number of Terrorism/National      12 FY 2009      U.S. Attorneys’ Annual Statistical
     Security Critical                                 Report FY 2009
     Infrastructure criminal
     matters declined by reason of      7 FY 2010      U.S. Attorneys’ Annual Statistical
     all other reasons                                 Report FY 2010
Source: Documents identified in the    “Where Statistic was Reported” column

       2.	 For our initial testing during this audit, we interviewed EOUSA
           officials to determine whether internal controls were in place and



                                              47
            documented to ensure the 39 statistics were accurately gathered,
            categorized, and reported. 43

       3.	 We reviewed documentation and interviewed EOUSA officials to
           identify the following information for each of the 39 terrorism-
           related statistics reported:

              •	 the period covered by the statistic,

              •	 the key EOUSA personnel responsible for tracking and
                 reporting the statistics and what mechanisms were used to
                 track the statistics, and

              •	 the processes used to report the statistics and the internal
                 controls established to ensure the accuracy of the reported
                 statistics.

       4.	 Of the 39 operational statistics, 6 were reported during the prior
           audit and were also reported subsequent to the prior audit with
           updated data. 44 During this follow-up audit, we selected those six
           statistics, which are described below, for follow-up testing. All six
           of these statistics are tracked in the Legal Information Office
           Network System (LIONS).

               •	 Number of criminal cases in U.S. District Court pending in
                  program category Terrorism/National Security Critical
                  Infrastructure

               •	 Number of criminal cases in U.S. District Court that were
                  terminated in program category Terrorism/National Security
                  Critical Infrastructure

       43
           According to Office of Management and Budget Circular A-123, Management’s
Responsibility for Internal Control, internal controls are the organization, policies, and
procedures that help program and financial managers achieve results and safeguard the
integrity of their programs. The Government Accountability Office’s Standards for Internal
Control in the Federal Government require that the controls and all transactions and other
significant events be clearly documented, and that the documentation be readily available
for examination. The documentation should appear in management directives,
administrative policies, or operating manuals and may be in paper or electronic form. All
documentation and records should be properly managed and maintained.

       44
           The title used by EOUSA to describe these six statistics during the prior audit was
different from the title used by EOUSA to describe these statistics during this follow-up
audit. However, the definition used by EOUSA to calculate the statistics remained
unchanged from the prior audit.



                                             48

      •	 Number of defendants in U.S. District Court in criminal cases
         filed in program category Terrorism/National Security Critical
         Infrastructure

      •	 Number of defendants in U.S. District Court in criminal cases
         terminated in program category Terrorism/National Security
         Critical Infrastructure

      •	 Number of dispositions in U.S. District Court guilty in
         program category Terrorism/National Security Critical
         Infrastructure

      •	 Number of Terrorism/National Security Critical Infrastructure
         defendants sentenced to prison.

5.	 For the remaining 33 operational statistics, we developed a risk
    assessment tool to assess both the risk that the statistic would be
    reported inaccurately, and used that tool to decide which statistics
    to test. Specifically, we developed the following six categories of
    risk and used a risk rating scale of one to three within each
    category, with one representing relatively low risk and three
    representing relatively high risk.

                        OIG’s Methodology for Measuring
                       Risk of Terrorism-Related Statistics
                          Risk Category/                     Risk
                         Rating Elements                    Rating
        1.   Frequency of use
             Reported 1 to 3 times                            1
             Reported 4 to 10 times                           2
             Reported 11 to 35 times                          3
        2.   Internal controls
             Established and documented                       1
             Established but not documented                   2
             Not established                                  3
        3.   Magnitude of the statistic
             reported
             From 0 to 100                                    1
             From 101 to 1,000                                2
             Greater than 1,000, to include any dollar-
             related numbers, percentages, and hours          3
        4.   Inconsistencies in statistics
             reported
             No inconsistencies                               1
             One inconsistency                                2
             Multiple inconsistencies                         3




                                      49

                        Risk Category/                 Risk
                       Rating Elements                Rating
        5. Reported in informational formats
           by others
           Reported by other than the Attorney
           General, Deputy Attorney General, or         1
           EOUSA
           Reported by EOUSA                            2
           Reported by the Attorney General or
           Deputy Attorney General                      3
        6. Precision of the statistic
           reported
           No operational statistics in group are
           precisely stated                             1
           Some operational statistics in group are
           precisely stated                             2
           All operational statistics in group are
           precisely stated                             3

   We calculated an overall average risk score for each of the
   33 operational statistics by adding the risk rating assigned for each
   of the six risk categories and then dividing this sum by six. We
   selected the following 5 of the 33 operational statistics for audit
   testing based on the risk rating we calculated and on our judgment
   of the significance of the statistic. All five of these statistics are
   tracked in LIONS.

      •	 Number of criminal appeals filed in program category
         Terrorism/National Security Critical Infrastructure

      •	 Number of criminal cases in U.S. District Court – all
         occurrences – terminated in program category
         Terrorism/National Security Critical Infrastructure

      •	 Number of defendants in U.S. District court – all occurrences
         – in criminal cases filed in program category
         Terrorism/National Security Critical Infrastructure

      •	 Number of defendants in U.S. District Court – all occurrences
         – in criminal cases terminated in program category
         Terrorism/National Security Critical Infrastructure

      •	 Number of dispositions in U.S. District court – all occurrences
         – guilty in program category Terrorism/National Security
         Critical Infrastructure

6. 	 We interviewed EOUSA officials and reviewed supporting
     documentation to determine whether the 11 operational statistics


                                      50

          selected for testing were accurately reported. As explained in the
          next section, for 10 of the 11 statistics we initially reviewed a
          sample of the transactions reported and, for 4 statistics where we
          noted a consistently high error rate among the sampled
          transactions, we expanded our review to include all reported
          transactions. For the other statistic, we reviewed all the reported
          transactions.

      7. 	 For instances where we found that the 11 statistics were not
           accurately reported, we interviewed EOUSA officials to obtain an
           explanation for why the inaccuracies occurred. We also visited the
           following eight USAOs where the highest number of exceptions
           occurred to obtain USAO officials’ views on why the exceptions
           occurred.

             •	   District of Arizona
             •	   Central District of California
             •	   Eastern District of Michigan
             •	   Northern District of California
             •	   Southern District of Florida
             •	   Southern District of New York
             •	   District of Columbia
             •	   Western District of Texas

Methodology for Sampling EOUSA Statistics

        For 10 of the 11 EOUSA operational statistics that we selected for
initial detailed testing, we selected samples for the 10 statistics by:

      •	 obtaining the data (cases terminated, cases pending, defendants
         terminated, defendants filed, guilty pleas, or defendants sentenced
         to prison) reported for each statistic; and

      •	 selecting one third of the data items to test.

     The samples were not statistically designed to enable projection of the
sample results to the entire population of data reported for each statistic.

      For the remaining operational statistic, we obtained the appeals filed
data reported for the statistic for both fiscal years and we selected all the
data for testing because total data items reported was small. The following
table shows the number of data items selected for each of the 11 statistics
that were reported.



                                        51

                      Samples Selected for EOUSA Statistics Tested

                                                         Data Items
                                                        Provided by       Initial
                                          Data Items       EOUSA        Data Items
              Statistic Description        Reported     During Audit      Tested
      1.    Number of criminal appeals    45 FY 2009         45            44 45
            filed in program category
            Terrorism/National Security   43 FY 2010        43               43
            Critical Infrastructure
      2.    Number of criminal cases in   258 FY 2010       258              86
            U.S. District Court – all
            occurrences – terminated in
            program category
            Terrorism/National Security
            Critical Infrastructure
      3.    Number of criminal cases in   620 FY 2009       620            198 46
            U.S. District Court pending
            in program category
            Terrorism/National Security
            Critical Infrastructure
      4.    Number of criminal cases in   234 FY 2009       234              78
            U.S. District Court that
            were terminated in program    220 FY 2010       220              74
            category Terrorism/National
            Security Critical
            Infrastructure
      5.    Number of defendants in       439 FY 2010       439             147
            U.S. District Court – all
            occurrences – in criminal
            cases filed in program
            category Terrorism/National
            Security Critical
            Infrastructure
      6.    Number of defendants in       406 FY 2010       406             136
            U.S. District Court – all
            occurrences – in criminal
            cases terminated in
            program category
            Terrorism/National Security
            Critical Infrastructure




       45
          We selected all 45 appeals for testing. The case for 1 of the 45 appeals was
sealed and we excluded this appeal from our testing.
       46
          We selected a sample of 207 of the 620 cases for testing. Nine of the 207 cases
were sealed and we excluded those cases from our testing.



                                              52
                                                      Data Items
                                                     Provided by        Initial
                                       Data Items       EOUSA         Data Items
          Statistic Description         Reported     During Audit       Tested
      7. Number of defendants in       311 FY 2009       311             103 47
         U.S. District Court in
         criminal cases filed in       385 FY 2010          385           128 48
         program category
         Terrorism/National Security
         Critical Infrastructure
      8. Number of defendants in       367 FY 2009          367            123
         U.S. District Court in
         criminal cases terminated     347 FY 2010          347            116
         in program category
         Terrorism/National Security
         Critical Infrastructure
      9. Number of dispositions in     341 FY 2010          341            114
         U.S. District Court – all
         occurrences – guilty in
         program category
         Terrorism/National Security
         Critical Infrastructure
      10. Number of dispositions in    307 FY 2009          307            103
         U.S. District Court guilty in
         program category              292 FY 2010          292             98
         Terrorism/National Security
         Critical Infrastructure
      11. Number of                    171 FY 2009          171             57
         Terrorism/National Security
         Critical Infrastructure       168 FY 2010          168             56
         defendants sentenced to
         prison
     Source:	 U.S. Attorneys’ Annual Statistical Reports and EOUSA’s Performance Budget
               Congressional Submissions

      For statistics 2, 4, 6, and 8 dealing with cases terminated, we
expanded our testing to include all transactions reported. We expanded the
testing in this area because of the consistently high error rate we noted for
these transactions.




      47
         We selected a sample of 104 of the 311 defendants for testing. The case for 1 of
the 104 defendants was sealed and we excluded this defendant from our testing.
      48
         We selected a sample of 129 of the 385 defendants for testing. The case for 1 of
the 129 defendants was sealed and we excluded this defendant from our testing.



                                           53

                                                                  APPENDIX II

OTHER PRIOR AUDITS AND INSPECTIONS THAT REVIEWED

   OR TOUCHED UPON THE ACCURACY OF TERRORISM­
  RELATED STATISTICS REPORTED BY THE DEPARTMENT


      In addition to our 2007 audit of the Department’s internal controls
over reporting terrorism-related statistics, we identified other previous
audits and inspections by the Office of the Inspector General (OIG) and
Government Accountability Office (GAO) that reviewed or touched upon the
accuracy of terrorism-related statistics reported by the Department.

      As noted in our 2007 audit report, the OIG previously reviewed 48
terrorism-related statistics or supporting systems and made
recommendations to correct deficiencies identified. The results of these
reviews were included in the following nine audit and inspections reports
issued from September 2003 through September 2005.

                                                      Report         Date
                     Report Title                    Number         Issued
    Follow-up Audit of the Department of Justice      03-33     September 2003
    Counterterrorism Fund
    Federal Bureau of Investigation Casework          03-37     September 2003
    and Human Resource Allocation
    The Federal Bureau of Investigation’s Foreign     04-25       July 2004
    Language Program – Translation of
    Counterterrorism and Counterintelligence
    Foreign Language Material
    Internal Effects of the Federal Bureau of         04-39     September 2004
    Investigation’s Reprioritization
    The Federal Bureau of Investigation’s Efforts     05-20       May 2005
    to Hire, Train, and Retain Intelligence
    Analysts
    Review of the Terrorist Screening Center          05-27       June 2005
    The Department of Justice’s Terrorism Task     I-2005-007     June 2005
    Forces
    The Federal Bureau of Investigation’s Foreign     05-33       July 2005
    Language Translation Program Follow-Up
    External Effects of the Federal Bureau of         05-37     September 2005
    Investigation’s Reprioritization Efforts
   Source: OIG audit, review, and inspections reports




                                        54

       In a January 2003 report, the GAO reported on the Department’s need
for better controls and oversight of terrorism-related statistics. 49 The GAO
reported that in FY 2001, the Department switched from using the Federal
Bureau of Investigation’s (FBI) terrorism-related conviction statistics to
using those of EOUSA for its annual report because of: (1) concerns raised
by a newspaper article’s allegation that the Department had inflated its
terrorism numbers in its FY 2000 Performance Report, and (2) an effort to
report conviction statistics that would be less likely to be misinterpreted. 50
Prior to FY 2002, the FBI and EOUSA used different criteria to classify cases
and resulting convictions as terrorism-related, resulting in differences in how
each entity ultimately classified a case. Consequently, the total number of
convictions classified by the FBI and EOUSA as terrorism-related differed.
Also, because EOUSA prosecutes federal cases, its classification system only
included federal convictions, while the FBI’s classification system also
included convictions in state, local, and international courts obtained with
the FBI’s investigative assistance. The GAO reported that the Department
did not have sufficient management oversight and internal controls in place
to ensure the accuracy and reliability of terrorism-related conviction
statistics included in its annual performance reports.

      In a March 2004 report, the GAO reported on: (1) the guidance and
procedures followed by federal law enforcement agencies regarding counting
investigations and arrests, and (2) how investigations and arrests statistics
are used. 51 The report also discussed whether multiple agencies were
counting and reporting the same investigations and arrests. The GAO
concluded that law enforcement agencies often counted the same
investigations and arrests resulting from joint operations and presented
these statistics in their public documents and budget justifications. The GAO
also observed that: (1) none of the law enforcement agencies reviewed had
a central repository of joint investigations and arrests, and (2) not all of the
       49
          U.S. General Accounting Office, Justice Department: Better Management
Oversight and Internal Controls Needed to Ensure Accuracy of Terrorism-Related Statistics,
GAO-03-266 (January 2003). On July 7, 2004, the GAO was renamed the Government
Accountability Office.
       50
          See Mark Fazlollah and Peter Nicholas, “U.S. Overstates Arrests in Terrorism,” The
Philadelphia Inquirer, December 16, 2001.
       51
           U.S. General Accounting Office, Federal Law Enforcement: Information on the
Use of Investigation and Arrest Statistics, GAO-04-411 (March 2004). The GAO reviewed
six federal agencies: the Drug Enforcement Administration; FBI; United States Marshals
Service; the former U.S. Customs Service; the former Immigration and Naturalization
Service; and United States Postal Inspection Service. The U.S. Customs Service and the
Immigration and Naturalization Service are now part of the Department of Homeland
Security.




                                            55

agencies distinguished between unilateral and joint arrests and
investigations within their databases. The GAO concluded that making this
distinction would help Congress when making budget decisions related to
these agencies.




                                    56

                                                                                               APPENDIX III

THE EXECUTIVE OFFICE FOR UNITED STATES ATTORNEYS’
       RESPONSE TO THE DRAFT AUDIT REPORT


                                                              U.S. D e partment of .Justice

                                                              Executive O ffice for U nited State, A ttorneys



                                                              ",K     ....... """__
                                                                                 ~.
                                                              9J(),,-_ _ ,, _ _. NW
                                                                                      R_n'"




                                                              ........"...-. oc nH()

     DATE;          Septcmber 9,20 13

    TO:             Ferris B . Polk


                  $."h.
                    Regional Audit Mllflager
                    A tl anta Regional Audit Office
                                   In,po."., Oono,,1

     F ROM ;
                    Do~d C."n~1                      •• "'" D ire«.,
                    Execu ti ve Office fo r Unit ed States Altom eys

     SUBJECT:       Response to the Repon enti tl ed. "'Follow-up Audit of the Department of J usticc's
                    Internal Controls Over Reporting o f Terroris m-Relate d S ta ti stics: The Executive
                    Office for United S ta tes Allomeys."


             The E"e<;: ut ive Office for United States A n omeys (EOUSA) appreciates the audit
    unde rt a ke n by the Department of Jus ti ce, Office of the Inspector Oeneral (010) regardi n g the
    collec ting and reporting oftcrrorism-related s tatistics by EOUSA and the U.S. Attorneys' offices
    (USAOs). The 0 10 reviewed a varie ty of terrorism-relatcd stati s tics WI reported by EOUSA
    through its LIONS case management system (LIONS). As pan of its work, 0 10 inquired into the
    policies and prac ticeS concerning how case data ~ entered into thc LI ONS syste m by the
    USA Os, IIfld how tha t data was colle<;:ted IIfld reported by EOUSA. The 010 repon contains si"
    re<:ommcndations for EOUSA and twO for the USAOs. EOUSA agrees w ith thcse
    recommendatio ns, although we note here several points tha t deserve funher emph ui,.

             As a n initia l matter it is wonh d escribing the salien t feature s of EOUSA's LIONS (la.se
    management systcm. T he LIONS syste m is 16 years o ld and its usage and li m itations help
    exp lain the con text of the OIG's recommendations. Each o f the 93 U .S. Attorneys ' offices
    (USAOs) inputs case data into the LI ONS system . EOUSA docs n o t ente r data into the system.
    Rather, EOUSA gathers the data inpulled by each of thc USAOs to create natio nal or distric t
    specific repons. The LI ONS system is geared toward generati n g reports o n a fiscal year basis.
    Importantly. only data Itetuall y en tered into the system by the close of the fi~al year is reponed
    in thol fisca l year. This methodo logy is based o n th e "$y$te m di s pos ition date," wh ich is tied to
    the date that USAO personnel e n ter data into LIONS, rather than the unde rly ing datc of a cue
    event .




                                                      57

        The LIONS system. by design. favors certainty over flexibility in reporting. That is. once
the clock strikes midnight on October 1. a new set of data collection begins for a new fiscal year.
and everything that is entered into LIONS thereafter during that fisca1 year will be reported as
part of that new fiscal year, even if it relates to an event that occurred during the past fiscal year.
Everything that was entered prior to October 1 (during the prior fiscal year) will be counted
toward that earlicr fiscal year. By establishing a fiscal year cut-off. EOUSA does not have to
constantly change its reporu.-d data based on events that may have occurred in a given fiscal year
but which were not entered into the system until the following fiscal year.

        EOUSA has created and disseminated uniform rules for inputting data into the LIONS
system, including a user's manuaJ. a "data dictionary," and case coding polices. as well as other
materials. As noted in the 01G report. EOUSA has taken a variety of steps to require that
individual USAOs promptly input terrorism data into LIONS. EOUSA also requires individual
USAOs to ccrtify. on a bi-annual basis, to the accuracy of the terrorism data inputted by each
office.

        Despite the pTCvious efforts made by EOUSA to ensure timely and uniform data entry
among the 93 districts, the 0 10 did find untimely data entry among the USAOs. The 010 found
that the primary cause of inaccurate data in the LIONS system was delayed data entry. not
factually inaccurate data. Indced. the 010 reported no instance where it found that a particular
fact. such as a defendant's name or thc date of the case event. or the type of charges. ctc.• was
crroneouslyentered. Rather. OTO's primary finding was that USAOs were slow to entcr thc
LIONS data. 1

          EOUSA certainly agrees that delayed data cntry may hinder accurate data reporting. But
it is important to note that any data that is entered outside of the fiscal year in which it occurred
will be reported in thc following fiscal year. Although this constant roll-over from year to year
does not lead to literally perfect data sets, there is no reason to assume, absent a full analysis. that
the year-end totals are inflated. The 01G report Executive Summary at page ii notes our point
that, "'to the extent cases are overstated in one year due to untimely data entry. these cases are
correspondingly understated in previous years."

       In any event, the better course is to work towards timely data entry, and EOUSA
understands DIG's recommendations to be di rected to this laudable end. 0 10 has made six
recommendations to EOUSA as follows:

        I . Establish a system to annually remind AUSAs to promptly fC.(:ocIc any case or matter
in LIONS that began as a tcrrorism or national security investigation but ultimately becomes a
different type of case that requires a change in the original coding.


1 The 010 repo rt did note a few instances where a case was labeled under one code but should have been

changed to a different code based on latcr changes to the investigation.
                                                       2




                                                    58

        2. Update reporting practices to clearly define the methodology used to collect the data
for each statistic, including an explanation for those statistics identified as "all occurren<:es."

        3. Clarify reporting practices on the number of dispositions in U.S. District Court guilty
in program category TerrorismlNational Security Critical Infrastructure by footnoting that the
dispositions could have resulted from guilty pleas or guilty verdicts that were obtained in a prior
year.
       4. Establish a specific timeframe for USAOs to enter case data into LIONS prior to the
end of each fiscal year.

        5. Monitor the USAOs compliance with the LIONS data-entry timeframe established and
require corrective actions by the USAO when non-compliance is identified.

         6. Ensure the statistical reporting log is maintained and captures requests for all terrorism
and national security program category code statistics and contains the responsive data to support
the statistics reported.

       The report also made two recommendations to the USAOs, liS follows:

         7. Establish and implement procedures to ensure that case data needed to produce
statistical reports are entered into LIONS within the timeframes established by EOUSA.

        8. Ensure that all staff responsible for entering data into LIONS are instructed on the
proper proccdun:s for updating data in LIONS for closed cases to ensure thllt cases are not
inllppropriately reopened and closed in a manner that results in inaccurate case statistics.

     EOUSA will undertake actions that meet these recommendations and will work with
USAOs to help them respond to the recommendations as wcll.




                                                      3




                                                59

                                                             APPENDIX IV

              OFFICE OF THE INSPECTOR GENERAL

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT


      The OIG provided a draft of this audit report to EOUSA. EOUSA’s
response is incorporated in Appendix III of this final report. The following
provides the OIG analysis of the response and summary of actions necessary
to close the report.

Recommendation Number:

  1. Resolved. EOUSA concurred with our recommendation to establish a
     system to annually remind AUSAs to promptly re-code any case or
     matter in LIONS that began as a terrorism or national security
     investigation but ultimately becomes a different type of case that
     requires a change in the original coding. EOUSA stated in its response
     that it will undertake actions that will meet this recommendation. This
     recommendation can be closed when we receive documentation that
     EOUSA has established a system to annually remind AUSAs to
     promptly re-code any case or matter in LIONS that began as a
     terrorism or national security investigation but ultimately becomes a
     different type of case that requires a change in the original coding.

  2. Resolved. EOUSA concurred with our recommendation to update
     reporting practices to clearly define the methodology used to collect
     the data for each statistic, including an explanation for those statistics
     identified as “all occurrences.” EOUSA stated in its response that it
     will undertake actions that will meet this recommendation. This
     recommendation can be closed when we receive documentation that
     EOUSA has updated reporting practices to clearly define the
     methodology used to collect the data for each statistic, including an
     explanation for those statistics identified as “all occurrences.”

  3. Resolved. EOUSA concurred with our recommendation to clarify
     reporting practices on the number of dispositions in U.S. District Court
     guilty in program category Terrorism/National Security Critical
     Infrastructure by footnoting that the dispositions could have resulted
     from guilty pleas or guilty verdicts that were obtained in a prior year.
     EOUSA stated in its response that it will undertake actions that will
     meet this recommendation. This recommendation can be closed when
     we receive documentation that EOUSA has clarified reporting practices


                                      60

   on the number of dispositions in U.S. District Court guilty in program
   category Terrorism/National Security Critical Infrastructure by
   footnoting that the dispositions could have resulted from guilty pleas
   or guilty verdicts that were obtained in a prior year.

4. Resolved. EOUSA concurred with our recommendation to establish a
   specific timeframe for USAOs to enter case data into LIONS prior to
   the end of each fiscal year. EOUSA stated in its response that it will
   undertake actions that will meet this recommendation. This
   recommendation can be closed when we receive documentation that
   EOUSA has established a specific timeframe for USAOs to enter case
   data into LIONS prior to the end of each fiscal year.

5. Resolved. EOUSA concurred with our recommendation to monitor the
   USAOs compliance with the LIONS data-entry timeframe established
   and require corrective actions by the USAO when non-compliance is
   identified. EOUSA stated in its response that it will undertake actions
   that will meet this recommendation. This recommendation can be
   closed when we receive documentation that EOUSA has implemented a
   method to monitor the USAOs compliance with the LIONS data-entry
   timeframe established and require corrective actions by the USAO
   when non-compliance is identified.

6. Resolved. EOUSA concurred with our recommendation to ensure the
   statistical reporting log is maintained and captures requests for all
   terrorism and national security program category code statistics and
   contains the responsive data to support the statistics reported. EOUSA
   stated in its response that it will undertake actions that will meet this
   recommendation. This recommendation can be closed when we
   receive documentation that EOUSA has implemented a method to
   ensure the statistical reporting log is maintained and captures requests
   for all terrorism and national security program category code statistics
   and contains the responsive data to support the statistics reported.

7. Resolved. EOUSA concurred with our recommendation that USAOs
   establish and implement procedures to ensure that case data needed
   to produce statistical reports are entered into LIONS within the
   timeframes established by EOUSA. EOUSA stated in its response that
   it will work with the USAOs to help them respond to the
   recommendation. This recommendation can be closed when we
   receive documentation that USAOs have established and implemented
   procedures to ensure that case data needed to produce statistical
   reports are entered into LIONS within the timeframes established by
   EOUSA.


                                   61

8. Resolved. EOUSA concurred with our recommendation that USAOs
   ensure that all staff responsible for entering data into LIONS are
   instructed on the proper procedures for updating data in LIONS for
   closed cases to ensure that cases are not inappropriately reopened and
   closed in a manner that results in inaccurate case statistics. EOUSA
   stated in its response that it will work with the USAOs to help them
   respond to the recommendation. This recommendation can be closed
   when we receive documentation that USAOs have ensured that all staff
   responsible for entering data into LIONS are instructed on the proper
   procedures for updating data in LIONS for closed cases to ensure that
   cases are not inappropriately reopened and closed in a manner that
   results in inaccurate case statistics.




                                 62

